<html>
<title> - MARKUP OF: ``PROVIDING FOR RECONCILIATION PURSUANT TO S. CON. RES. 5, THE CONCURRENT RESOLUTION ON THE BUDGET FOR FISCAL YEAR 2021''</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  MARKUP OF: PROVIDING FOR RECONCILIATION 
                    PURSUANT TO S. CON. RES. 5, THE 
                    CONCURRENT RESOLUTION ON THE BUDGET 
                    FOR FISCAL YEAR 2021

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 10, 2021

                               __________
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-003
             Available via the GPO Website: www.govinfo.gov
             
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-966                      WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                     David Planning, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Blaine Luetkemeyer..........................................     3

                                APPENDIX

Additional Material for the Record:
    S. Con. Res. 5, the Concurrent Resolution on the Budget for 
      Fiscal Year 2021...........................................    61
    American Rental Association (ARA)............................   131

 
 MARKUP OF: ``PROVIDING FOR RECONCILIATION PURSUANT TO S. CON. RES. 5, 
                   THE CONCURRENT RESOLUTION ON THE 
                     BUDGET FOR FISCAL YEAR 2021''

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2021

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 5:06 p.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Crow, Davids, 
Mfume, Phillips, Newman, Bourdeaux, Chu, Evans, Delgado, 
Houlahan, Kim of New Jersey, Craig, Luetkemeyer, Donalds, 
Fitzerald, Hagedorn, Kim of California, Meuser, Garbarino, 
Salazar, Stauber, and Williams.
    Chairwoman VELAZQUEZ. The Committee will please come to 
order. A quorum is present.
    Pursuant to Committee Rule 13 and House Rule 11, Clause 2, 
the Chair announces that she may postpone further proceedings 
today on the question of approving the measure or matter or 
adopting an amendment on which a recorded vote of the yeas or 
nays are ordered.
    Without objection, the Chair is authorized to declare a 
recess at any time. So ordered.
    I would like to begin by noting some important 
requirements. During the covered period as designated by the 
speaker, the Committee will operate in accordance with H.R. 
965, which was incorporated into the 117th House Rules under 
H.R. 8. Just as we did last Congress, we will follow guidance 
from the Rules Committee to respect the rights of all Members 
to participate. Standing House and Committee rules and practice 
will continue to apply during hybrid proceedings as well. House 
regulations require Members to be visible through a video 
connection throughout the proceedings. Due to the nature of a 
markup, it is extremely important that Members follow this rule 
to ensure a quorum can be established and that Members' votes 
can be recorded by the clerk.
    As a reminder, Members can participate in only one 
proceeding at a time. If you have another Committee proceeding 
or meeting, please sign off and rejoin later.
    If a Member wishes to offer an amendment that has not been 
pre-filed, we may take a brief recess to allow for its 
uploading, printing, and distribution, then resume. We might 
also recess briefly to address technical issues in the event a 
Member cannot be recognized to speak.
    Finally, for those physically present in the Committee room 
today, we will also be following the health and safety 
guidelines issued by the physician.
    The Chair recognizes herself to make an opening statement.
    The Committee meets today pursuant to notice to consider 
the Committee print providing for reconsideration pursuant to 
S.Con.Res.5, the concurrent resolution on the budget for Fiscal 
Year 2021. As required by House rules, a copy of the measure 
has been made available to Members and the public at least 24 
hours in advance.
    Today, we will be considering legislation to further help 
our nation's small employers power through this unprecedented 
crisis. In the first CARES bill, Congress enacted the Paycheck 
Protection Program, an economic injury disaster loan and 
advanced program to provide economic relief. Unfortunately, the 
pandemic outlasted that assistance. Over the course of the 
year, we have held hearings, listened to the experts, and made 
several improvements to the economic relief programs, mainly 
making it easier for small businesses to access and use the 
funds. And when we replenished the funds, we created set-asides 
for the smallest of the small businesses and those in 
underserved communities.
    Congress empowered mission-based community lenders and 
small banks to make sure the aid reached those that were left 
behind. Second draw loans were also created to target aid to 
the hardest hit small businesses. In recognizing that not all 
small businesses can take on or even access additional debt and 
therefore need direct cash infusion, we provided several grants 
to support the hardest hit businesses and industries. This 
Committee has heard stories from thousands of employers how 
this program helped them stay in operation, keep employees on 
payroll, and give them hope that there is light at the end of 
the tunnel.
    But nearly a year into the pandemic, millions of businesses 
are on the brink of collapse. In fact, more than 400,000 small 
businesses have already closed their doors for good. And 
surveys show that one in three small business owners will not 
survive the next few months without additional financial 
support.
    That is why today's measure to deliver more financial 
assistance to main street and delivering it swiftly is so 
critical. Today, we will consider policies that will ultimately 
be included in a larger, more robust stimulus package. The 
Committee print we are considering today will inject an 
additional $15 billion into the targeted EIDL Advances to help 
those who applied for relief in 2020 but did not receive the 
full amount, or in some cases nothing at all because the funds 
dried up.
    Additional supplemental advances will be targeted to 
businesses with extreme revenue losses in low-income areas. The 
measure will also top off the shuttered Venue Grant Program 
with $1.25 billion to meet anticipated demand in that program 
which will help small entertaining businesses and cultural 
institutions in our communities. The measure establishes a $25 
billion grant program for independent restaurants that have 
been dealt a tremendous blow by the pandemic. We heard in 
Committee hearings that while the PPP was helpful in the short 
run, it did not meet their long-term needs. Restaurants need a 
long-lasting solution to make it through these cold winter 
months.
    It also expands PPP eligibility to 501(c) nonprofits with 
the exception of 501(c)(4) organizations and permit nonprofits 
with multiple locations to apply for assistance. Nonprofits 
like the Goodwill and YMCA have been working tirelessly 
throughout the pandemic to provide one meal and services to the 
most vulnerable. They employ 12.3 million people, the third 
largest workforce in the U.S. economy, but we know that they 
have had to lay off nearly 900,000 employees. This aid will go 
a long way in providing relief and enable them to continue to 
meet the increased demands for food, childcare, and also retain 
their workers. It also harmonizes PPP eligibility to include 
digital news agencies and put them on par with their brick and 
mortar colleagues. Doing so will not only save jobs but ensure 
access to local emergency and pandemic information that is more 
vital than ever.
    And finally, the bill will provide $1.5 billion in 
administrative expenses to the SBA to ensure that SBA can get 
the programs up and running effectively and swiftly. I am proud 
of the work of our Committee, and especially grateful to our 
Members who are dedicated public servants.
    The Chair now yields to the distinguished Ranking Member 
for an opening statement, Mr. Luetkemeyer.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    Our nation's small businesses are hurting. They are bearing 
the brunt----
    Chairwoman VELAZQUEZ. I think you need to unmute.
    Mr. LUETKEMEYER. I am sorry? Are we ready? Hello? Are we 
ready to go?
    Chairwoman VELAZQUEZ. He is on, right? Now we can hear you. 
Yes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    Our nation's small businesses are hurting. They are bearing 
the brunt of COVID-19. This pandemic has presented challenges 
unlike anything we have witnessed in the past. Despite these 
circumstances, our nation's job creators have tried their best 
to move forward. They have innovated, reinvented their 
offerings, and worked tirelessly to meet the needs of their 
customers.
    I praise each and every business from the main streets of 
my home state of Missouri, to the Chair's state of New York and 
beyond. It is important to note that we have data to show that 
if a state opens quickly in a responsible way, small businesses 
can safely operate in an environment that allows them to serve 
their customers. My state of Missouri did this back in May of 
2020, and we have seen an extensive benefit that this has 
provided.
    Although our small businesses are comprised of some of the 
most innovative and agile employers and employees, ever-
changing capacity restrictions and COVID-19 shutdown measures 
instituted by state and local governments have put their 
livelihoods and their employees in jeopardy.
    Instead of allowing them to meet safety measures, some of 
the nation's smallest businesses have been forced to turn off 
their lights and close their doors. In many circumstances, 
these states never even provided small business with a chance 
to survive. Due to COVID and these over-reaching shutdown 
measures, small businesses, entrepreneurs, and startups 
continue to face severe financial hardships.
    As a response, the Federal government responded quickly and 
efficiently in March of last year by setting up numerous 
programs such as the Paycheck Protection Program, also known as 
PPP. By partnering with the lenders, PPP funding was delivered 
quickly to small businesses. With a focus on payroll, the 
assistance was intended to ensure small businesses can pay 
their workers during these unprecedented times. Through data 
from the Small Business Administration, we know that this 
program has assisted or saved millions of small businesses and 
tens of millions of jobs.
    Until now, all COVID relief packages have been bipartisan, 
meaning they have been supported by both Republicans and 
Democrats. Understanding the magnitude of the situation, we 
worked across the aisle, compromised, and created solutions 
that worked for our nation's small businesses. However, today, 
we find ourselves at a Committee on Small Business markup where 
our side has been blocked from engaging on the proposed 
legislation as topics of such importance were drafted without 
our thoughts or our ideas.
    This is a shame and a disgrace. I would like to remind my 
colleagues on the other side that prior to COVID-19, small 
businesses were projecting confidence, optimism, and job 
creation all around. And program policies resulted in historic 
unemployment levels across the board by focusing on a small 
regulatory environment combined with lower taxes, small 
businesses have economic freedom and economic opportunity to 
innovate and expand. Unfortunately, things are now moving in 
the opposite direction, not only with this COVID package and 
the haphazard hazard discussion surrounding raising the minimum 
wage, but also with the recent administration action overall 
taken by the president. From eliminating good paying jobs with 
his Executive Order on the Keystone Pipeline, to refusing to 
police regulatory burdens, small businesses will be facing new 
challenges beyond COVID.
    Small businesses are in a precarious position. Any added 
mandates will be counterproductive.
    With that, I look forward to actually having a discussion 
and our first input on the proposed legislation before us 
today. I know Committee Republicans have valuable ideas and I 
hope they are seriously considered by my colleagues.
    Thank you, Madam Chair, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Does any Member seek recognition for making a statement at 
this time?
    Mr. Evans from Pennsylvania is recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair.
    I thank the Chair for all the leadership she has provided 
to this Committee. She has worked tirelessly to make sure small 
businesses, especially minority-owned businesses, get relief 
during this economic crisis.
    Coming from Philadelphia where the poverty rate is over 24 
percent, I believe small businesses are crucial to economic 
parity.
    Mr. LUETKEMEYER. Hey, I just got a call from Beth Van 
Duyne. Is she in the----
    Chairwoman VELAZQUEZ. The gentleman from Pennsylvania can 
proceed.
    Mr. EVANS. COVID-19 has been devastating to many 
businesses, but especially to minority-owned businesses. From 
February to April 2020, COVID wiped out 41 percent of Black-
owned businesses, 32 percent of Hispanic-owned, and 26 percent 
of Asian-owned businesses compared to just 17 percent of White-
owned businesses. And Black business owners are not feeling 
optimistic.
    According to a recent published Federal Reserve Bank Report 
of New York, 73 percent of White-owned businesses were found to 
be healthy or stable compared to just 42 percent of Black-owned 
businesses.
    It is important to understand that what Congress has done 
when they passed the CARES Act in March of last year, which 
created temporary relief with programs such as the Paycheck 
Protection Program, the Economic Disaster Loan Program, PPP, 
which received additional funds in this bill, has been 
especially crucial.
    A small business owner in my district who employees over 50 
people was able to use PPP to keep their business afloat 
without letting their employees go. At the end of the year, 
they had additional funds for emergencies. EIDL Advance created 
the Shuttered Venue Operators Grant Program. This package 
bridged until we could provide more relief. The pandemic has 
especially hurt the restaurant industry due to the unique 
structure.
    Restaurants are an important part of our communities and 
our economy, which is why I want to see them survive. Many 
restaurants in my district have been waiting for relief while 
they have continued to beg for more funds. While the most 
recent package will allow restaurants to get bigger PPP loans, 
this was not enough. I support the Restaurant Act together with 
my colleagues on the Ways and Means Committee.
    The $25 billion Restaurant Act based on the Restaurant Act 
which will help thousands of restaurant owners, it is important 
to understand that that is a very important start of providing 
grants of $10 million to those restaurants suffering because of 
the pandemic. Further, an additional $15 billion funding for 
EIDL Advance is absolutely needed, as many businesses in my 
district did not receive EIDL Advances and only received a 
reduced amount.
    Small Business Development Centers, Women Business 
Development Centers, and other organizations provided critical 
guidance and assistance to small businesses. They have helped 
thousands of small businesses in Pennsylvania navigate SBA 
programs, as well assist small businesses comply to the new 
norm. My local Small Business Development Center at Temple 
University created new programs with funds in the CARES Act, 
the Center for Hospitality, and the Center for Digital 
Transformation for Small Businesses. Because of the remarkable 
work of these programs, I support the creation of the Community 
Navigator Program that will help provide $100 million in grants 
for such organizations and $75 million for outreach and 
education.
    Again, because of the leadership of this Committee, the 
Chair has shown all of us what it is to work together. She has 
made it very clear that small and minority businesses are a 
priority. That is why I am glad to see the program prioritize 
businesses in underserved communities. I hear far too often 
that small businesses in my district are struggling to get 
financial documents prepared. This bill provides such needed 
relief to small businesses. I look forward to passing it in our 
Committee.
    I thank you, Madam Chair.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Does any Member seek recognition for making an opening 
statement at this time?
    Ms. BOURDEAUX. Madam Chairwoman?
    Chairwoman VELAZQUEZ. Will you please identify yourself and 
the state?
    Ms. BOURDEAUX. This is Carolyn Bourdeaux.
    Chairwoman VELAZQUEZ. Who is seeking recognition?
    Ms. BOURDEAUX. Carolyn Bourdeaux.
    Chairwoman VELAZQUEZ. Carolyn Bourdeaux, you are recognized 
for 5 minutes.
    Ms. BOURDEAUX. Thank you so much.
    Madam Chairwoman, I rise in support of the bill before the 
Committee today as we work to deliver on our promise to help 
the American people and small businesses who are the economic 
drivers of our communities.
    This legislation targets critical assistance to the hardest 
hit small businesses who have been struggling for nearly a year 
to withstand the economic crisis caused by COVID-19. The 
creation of the Restaurant Revitalization Fund will help 
support the 1,600 restaurants located in my congressional 
district who are part of the economic foundation of the diverse 
and rich community of Georgia's 7th Congressional District.
    We know that the COVID-19 pandemic has devastated the 
restaurant industry as necessary restrictions on indoor dining 
have forced businesses to let employees go and many have had to 
permanently close their doors. In Georgia, hundreds of 
thousands of workers rely on restaurants and the foodservice 
industry to make a living, including over 35,000 restaurant 
workers in my district. This bill with the $25 billion 
allocated for restaurants through the Restaurant Revitalization 
Fund ensures that restaurants can sustain jobs that can be 
there waiting for them after we defeat the COVID-19 pandemic.
    The pandemic has not affected all businesses equally. 
Minority-owned businesses and small mom and pop shops have been 
hit extremely hard by the economic effects of the pandemic, and 
this is why the bill provides critical assistance to businesses 
with 10 employees or less through $15 billion in additional 
funding for the targeted Economic Injury Disaster Loan Program 
and direct support to particularly vulnerable businesses in 
low-income census tracts to ensure that we take care of those 
who may have fallen through the cracks.
    Over the past year, Congress has allocated significant 
resources to help small businesses weather the effects of the 
COVID-19 pandemic. Much of this assistance has helped 
businesses keep their doors open even in the most challenging 
of circumstances.
    However, many small businesses have yet to receive help, 
either because they are not aware that they qualify, or they do 
not know how to utilize important features of these programs 
such as loan forgiveness. In my district, information gaps and 
lack of resources to adequately reach these small businesses 
have resulted in a disparate recovery and inequities with 
respect to both access to capital and loan forgiveness. As we 
continue to provide significant support for small businesses 
amid this crisis, we must ensure that no business that 
qualifies for aid is left behind. The Community Navigator pilot 
program included in this bill will provide very important 
resources to trusted community organizations who are on the 
frontlines to help educate business owners and the public on 
opportunities to use these lifelines.
    This program is a very prudent investment and important 
step towards ensuring that every small business, especially 
those owned by socially and economically disadvantaged 
individuals, minority communities, women, and veterans, can 
access the assistance they need.
    Finally, I am proud to represent a district which contains 
a number of community theaters, including the Aurora Theater in 
Lawrenceville, which would benefit from the Shuttered Venue 
Operator Grant Program funding provided by this bill. Live 
music and performance venues play such a vital role in our 
communities and we must do all we can to ensure that these 
institutions are able to survive this pandemic.
    I thank the Committee for their hard work in producing the 
bill before us today, and I look forward to continuing to 
ensure that all small businesses have access to the resources 
they need to survive the COVID-19 pandemic and reopen when it 
is safe to do so.
    Thank you. I yield back the balance of my time.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back.
    Does any Member seek recognition at this time?
    Ms. CHU. Yes, I do. Judy Chu.
    Chairwoman VELAZQUEZ. The gentlelady from California, Judy 
Chu, is recognized for 5 minutes.
    Ms. CHU. Madam Chair, I would like to thank Chairwoman 
Velazquez for offering today's legislation to fulfill our 
Committee instructions to deliver for the millions of small 
businesses that are still facing near-impossible circumstances 
due to the COVID-19 pandemic.
    We have a duty to ensure that they have the resources and 
assistance they need to survive this crisis without 
compromising the health of their customers, employees, and the 
community. That is precisely what this legislation 
accomplishes, and it comes at a crucial moment for our 
country's small businesses. New cases, hospitalizations, and 
deaths recently spiked almost unthinkable levels with all but 
one-fifth of the total deaths in this pandemic occurring over 
the last 6 weeks. And while our vaccination system improves 
every day, there is still a long way to go to defeat the virus.
    We know that these precarious conditions are costing small 
businesses. According to the Census Bureau, more small business 
owners reported decreasing weekly revenue at the start of this 
year than at any other time since last June. It is clear they 
need more help, and I am proud that this Committee is doing its 
part to deliver that assistance expeditiously.
    We are doing that by building on the strong foundation of 
support laid by Congress since we passed our first COVID 
Response bill in March of last year. Since those early days of 
the pandemic, we have heard from struggling small businesses, 
from community lenders, from SBA's resource partners, from SBA 
and Treasury leadership. Each of us have heard from countless 
small businesses in our own districts that have warned us to 
make bipartisan improvements to our relief programs.
    In my district, my small business owners were among the 
country's first to feel the impacts of the pandemic, but they 
could not find banks to process their PPP applications when the 
program first launched. Stories like theirs help Congress to 
establish set-aside lending authority for community financial 
institutions and now this legislation takes another step in the 
right direction by creating a new Community Navigator program 
to directly connect underserved businesses to COVID relief. It 
also expands PPP eligibility to all struggling nonprofits, and 
I am so pleased that this legislation includes $25 billion for 
new restaurant revitalization funds.
    Like live venues, restaurants and bars simply just cannot 
operate at full capacity safely, and that is through no fault 
of their own. The science tells us that indoor dining is an 
incredibly risky activity for COVID spread and this provision 
will allow these establishments to stay afloat without having 
to put their staff or customers at risk just to make ends meet.
    This also illustrates an important point that I hope does 
not get lost in the debate at this markup. This legislation is 
about helping small businesses, but it is also about defeating 
the virus. We are now reporting an average of almost 1.5 
million vaccine doses administered each day and can see the 
light at the end of the tunnel. But to get there we all must 
continue to do our part to limit spread. This bill provides 
small businesses with the tools and assistance to do just that 
without closing their doors for good.
    I support this legislation and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Does any Member seek recognition for making a statement?
    The first item on our agenda today is the Committee print 
providing for reconciliation pursuant to S.Con.Res.5, the 
concurrent resolution on the budget for Fiscal Year 2021.
    The clerk will report the bill.
    The CLERK. Providing for reconciliation----
    Chairwoman VELAZQUEZ. Without objection, the first reading 
of the Committee print is dispensed with.
    Without objection, the Committee print shall be considered 
a thread and open for amendment at any point.
    The Chair now recognizes herself to offer an amendment in 
the nature of a substitute to the Committee print.
    The clerk will report the amendment in the nature of a 
substitute.
    The CLERK. Amendment 1v2 to the Committee print----
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    Without objection, the substitute will be considered as 
original text for the purposes of further amendments.
    So ordered.
    I would now like to recognize the Ranking Member for 5 
minutes for a statement on the amendment in the nature of a 
substitute.
    Mr. LUETKEMEYER. Thank you, Madam Chair. And I want to 
thank you for thinking through some of these issues.
    Unfortunately, I oppose the approach you have taken. Not 
only has it been conducted in a manner that goes against the 
bipartisan tradition of this Committee, but it unwisely 
increases program eligibility and allocates dollars in a 
misguided manner.
    Before I get into the substance of the bill, I want to 
comment briefly on the long, bipartisan tradition of this 
Committee and the bipartisanship that has previously been the 
blueprint for addressing COVID relief.
    Historically, this Committee has worked on behalf of small 
businesses across the country. No matter the issue, we have 
found a way to come together and develop a solution that 
addresses the needs of the nation's innovators. Congress has 
approached every single COVID relief bill since the beginning 
of March in a bipartisan manner. Both sides compromised and 
agreed on the best path for America.
    Unfortunately, this Congress and the new administration are 
taking a different approach, and the resulting legislative 
package we have before us proves just that. Less than 2 months 
ago, the former president signed the December COVID Relief Bill 
directing $325 billion to our nation's small businesses. While 
the Small Busines Administration and Department of Treasury 
acted quickly to restart the PPP program, many of the other 
small business programs addressed in the bill have still not 
been activated by the agencies. And yet, here we are today 
spending another $50 billion on many of these same programs.
    On behalf of our nation's small businesses, entrepreneurs, 
and startups, let's resolve to work to ensure the reforms and 
enhancements that were voted on in December are launched and 
implemented correctly.
    I also have concerns that we are expanding the Paycheck 
Protection Program beyond the original intent of Congress by 
removing the critically important affiliation rules that help 
patrol the size of eligible entities from entering into this 
critical government assistance program.
    Additionally, our side has consistently objected to sending 
dollars to Planned Parenthood. This leaves the door wide open 
for them to receive direct funding. Quite frankly, Madam Chair, 
this is unacceptable.
    This legislative package also continues down the path of 
inviting fraud into government programs. Report after report 
from SBA's Office of Inspector General and Government 
Accountability Office have cited concerns with fraud. In order 
to move forward with many of these grant programs, we need to 
seriously consider oversight measures that will ensure American 
taxpayer dollars are protected.
    We are willing to work in a bipartisan manner to refine and 
improve many of these programs. We support assisting the 
hardest hit businesses, including additional targeted funding 
to restaurants but we must do it in a smart approach. Overall, 
I must oppose this amendment and the interim substitute offered 
by the Chair, and at this time, I would like to yield to the 
Vice Ranking Member of the Full Committee, the gentleman from 
Texas, Mr. Williams.
    Mr. WILLIAMS. Thank you, Ranking Member.
    I would also like to state my opposition to the A&S in its 
current form. When this legislation turns away from the 
bipartisan nature of the previous COVID-19 bills that have come 
through Congress, this is purely partisan. It is a political 
process that is limiting the ability of Republican Members to 
have any input on the final product. There are already rumors 
that Democrats have been instructed not to vote in favor of any 
Republican amendment that will be offered during this markup 
and I hope that is not true. I think we are bigger than that.
    As an example of bipartisanship in the last COVID-19 relief 
bill, I worked for many months on the Save Our Stages 
legislation. This bill was widely supported on both sides of 
the aisle and garnered over 100 bipartisan co-sponsors while we 
were educating other Members of Congress about the unique needs 
of the live music industry.
    This vital piece of legislation was included in the bill 
that passed in December and even though it is now February, 
these heavily affected industries are still waiting for the SBA 
to administer this program.
    I would think instead of working to get the bipartisan 
programs up and running, we are now turning to other partisan 
priorities. I truly believe we could come together again for 
the American people and work on a bipartisan relief measure. 
Unfortunately, this bill introduces provisions such as giving 
Planned Parenthood access to relief funds, increasing minimum 
wage to $15, which I can tell you as a business owner now 
employing hundreds of people, that is a job killer. And other 
union giveaways that will force me to oppose this legislation 
in its current form.
    I think we can, I think we must do better for this nation. 
We need to continue implementing America First policies to help 
small businesses and reopen the economy so our country can 
flourish when the COVID-19 pandemic subsidies.
    I yield my time back.
    Chairwoman VELAZQUEZ. The gentleman yields.
    Mr. LUETKEMEYER. I yield back to the Chair.
    Chairwoman VELAZQUEZ. We will now move to considering 
amendments to the amendment in the nature of a substitute. The 
Chair would like to note that while the amendment in the nature 
of a substitute to the Committee print is open for amendment at 
any time, for the convenience of Members and staff we will be 
considering amendments in the order they are listed on the 
roster provided to your office electronically.
    The Chair now recognizes herself to offer a manager's 
amendment.
    The clerk will please report the amendment.
    The CLERK. Amendment 1v1 to the amendment----
    Chairwoman VELAZQUEZ. Without objection, the reading of the 
amendment is dispensed with.
    I recognize myself for 5 minutes.
    This manager's amendment makes technical edits to correct 
typographical errors and remove bracketed text or placeholders 
inadvertently left in the print.
    Without objection, the amendment is agreed to.
    We will now proceed to consider pre-filed amendments in the 
order listed in the amendment roster starting with the 
gentleman from Missouri, Mr. Luetkemeyer.
    Mr. LUETKEMEYER. Madam Chair, are you going to have a vote 
on the manager's amendment first?
    Chairwoman VELAZQUEZ. We do not need it, sir.
    Mr. LUETKEMEYER. Okay. Very good. Okay, I appreciate that. 
Thank you, Madam Chair.
    I do have an amendment. It is at the desk. Is it ready to 
be discussed?
    Chairwoman VELAZQUEZ. The gentleman has an amendment at the 
desk and the clerk will report the amendment.
    The CLERK. Substitute Amendment 1v1, the amendment to the 
Committee print offered by Mr. Luetkemeyer----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The Ranking Member now is recognized for 5 minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    We are all aware of the impact small businesses have on our 
economy. They propel it. They steer it. They land it. Simply 
put, small businesses are one of the most import segments of 
our economy. While I certainly appreciate your effort to 
bolster our small business constituency, Madam Chair, I feel 
that there are just too many extraneous subdivisions in the 
amendment in the nature of a substitute that you have offered.
    We have two excellent, proven, and results-oriented 
programs that have answered the call over the last 2 years and 
I believe we should bolster them instead of creating new 
programs. Of course, I am speaking of the Paycheck Protection, 
or PPP program, and the Economic Injury Disaster Loan program, 
or EIDL. Additionally, I would like to add that these ideas 
were the ones that a few center Republicans brought to 
President Biden at the beginning of the month. They are 
thinking about these ideas, and so are we.
    Madam Chair, under your leadership and the Biden 
administration, the Biden administration has given us another 
$50 billion to work with. We should put those funds into 
established programs that have proven results. My amendment 
would strike everything before us and simply put $40 billion 
into the established PPP program and $10 billion into the 
proven EIDL program. But also reserve $25 million for the 
appropriated funds for SBA's Office of Inspector General to 
support their efforts to conduct oversight of these programs 
instead of creating new grant programs. This is a demonstrated 
way to get these funds into the hands of the people who can use 
it best.
    I urge my colleagues to support my amendment. And with 
that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do any other Members seek recognition?
    Ms. CRAIG. Madam Chair, this is Congresswoman Angie Craig, 
and I seek time in opposition to the Ranking Member's 
substitute amendment.
    Chairwoman VELAZQUEZ. The gentlewoman is recognized for 5 
minutes.
    Ms. CRAIG. Thank you so much, Chairwoman.
    Colleagues, the Ranking Member's substitute, among many 
troubling, proposed changes, would strike section 603 of the 
amendment in the nature of a substitute we are considering 
which deals with support for restaurants.
    As you all know, it has been nearly a year since the COVID-
19 pandemic forever changed American life, leaving millions of 
our constituents jobless and burdening countless new and 
unprecedented challenges. Restaurants were some of the first 
businesses to understand the devastating economic impact of 
this public health crisis and they are still feeling the 
effects.
    In April of last year alone, more than 5 million restaurant 
workers lost their jobs, accounting for more than 25 percent of 
the job losses nationwide that month. I saw beloved family-
owned restaurants across my district, like Jo Jo's Rise and 
Wine in Burnsville and Granny Donuts in West St. Paul close 
their doors for good. Other restaurants have laid off staff or 
cut hours just to stay afloat. It is our responsibility in 
Congress to ensure we do not lose any more of these vital 
businesses or jobs that they offer in our communities.
    Last year, I joined many of my colleagues as a co-sponsor 
of the Restaurants Act legislation, and I am again supporting 
in the 117th Congress. And over the past year I have repeatedly 
joined similar efforts to deliver relief directly to our small, 
struggling, independent restaurants.
    Just a few days ago, I sent a congressional leadership 
letter with some of my colleagues in the Minnesota delegation, 
including fellow Committee Member Dean Phillips. In that letter 
we reiterated the urgent need for this assistance and urged 
negotiators to include it in the text that we are considering 
here today. As a result of that work and the advocacy of so 
many Americans, I am pleased to say that the long-overdue 
relief grant program for restaurants has been included in 
today's markup.
    The Restaurant Revitalization Fund has the potential to 
help nearly 500,000 independent restaurants, as well as their 
11 million employees whose futures have been in jeopardy every 
single day since this public health crisis started. Restaurants 
are the beating heart of every single one of our communities. 
Let's stand up for them and reject the substitute that the 
Ranking Member here today, the gentleman, has sought that would 
strip this relief from our community's most cherished small 
businesses.
    I encourage my colleagues to oppose this amendment.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Is there any further debate on the amendment?
    There is further debate on the amendment? Any other Member 
who would like to be recognized?
    I will recognize myself for 5 minutes.
    I share my colleague, Mr. Luetkemeyer's commitment to small 
businesses, but I will have to respectfully disagree with this 
amendment in the nature of a substitute. Over the course of the 
past year, we held hearings, listened to experts, and made a 
number of improvements to the Economic Relief program, mainly 
making it easier for small businesses to access and use the 
funds. And while the PPP and the EIDL program have helped 
millions of small businesses, we heard testimony just this past 
week that these programs were not tailored to meet the unique 
needs of restaurants and other hard-hit businesses.
    We also heard that they were not meeting the needs of the 
undeserved communities. Put simply, these programs are not 
enough. That is why we developed a comprehensive package that 
targeted aid to the minority small businesses in the hardest 
hit industry.
    I think it is also important to note that the Senate voted 
90 to 10 expressing its bipartisan support for the bill to help 
restaurants. Restaurants have lost over 2.4 million jobs since 
the start of the pandemic, far more than any other industry. 
They are in crisis and the PPP is not working for them.
    In the second quarter of 2020, restaurants lost over $220 
billion in revenue and received less than 18 percent of their 
losses in the PPP. For restaurants, the PPP was a 10-week 
solution to what is becoming a year to 18 long problem 
(phonetic). That is why we are providing $25 billion to 
establish a grant program to help restaurants. They need a 
long-lasting solution like grants to make it through the cold 
winter.
    It is for all those reasons that I oppose the gentleman's 
amendment.
    I ask if there is any further debate on this amendment.
    Seeing none, the question is on the amendment by the 
gentleman from Missouri.
    I ask all Members attending virtually to please unmute 
yourselves for the roll call.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Mr. WILLIAMS. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote. Is there a sufficient second?
    There is a sufficient second.
    Pursuant to Committee Rule 13 and House Rule 11, further 
proceedings on the amendment are postponed.
    We will now consider the second Luetkemeyer amendment.
    For what purpose does the gentleman from Missouri seek 
recognition?
    Mr. LUETKEMEYER. I have an amendment at the desk, Madam 
Chair.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1 to the amendment----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The Ranking Member is recognized for 5 minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    This is a simple, straightforward amendment that increases 
the money allocated to the Small Business Administration's 
Office of Inspector General by an additional $25 million.
    Let me just set the scene here. In the last 11 months, 
Congress has appropriated approximately $1 trillion in loan and 
loan guaranty programs for COVID relief. Over $600 billion of 
those dollars have been dispersed by the SBA. This level and 
speed of spending is extraordinary, beyond anything we have 
ever seen in the history of this country, and unfortunately, 
saw many instances of fraud and abuse. The SBA's Office of 
Inspector General operates at the frontlines of this war we are 
waging against the toll of COVID-19 on small businesses, 
safeguarding taxpayers' hard-earned dollars, and holding the 
SBA accountable for the administration of their loan programs. 
Already, the SBA OIG has flanked several deficiencies in SBA's 
implementation of the Paycheck Protection Program, and serious 
concerns of fraud and economic injury in the Disaster Loan 
Program. We must ensure that this office has the resources it 
needs to continue doing the enormously important work of 
holding the SBA accountable. This amendment does just that.
    Madam Chair, we have got two duties as legislators. One is 
to put legislation out to solve problems and improve the lives 
of our citizens, as well as to provide oversight over those 
programs that we implement.
    I realize that you guys have been told apparently up above 
what the rumor is that you cannot accept any amendment, but to 
not put money in the Office of the Inspector to continue to 
provide the oversight which we, as legislators, as part of our 
duty to empower them to be able to do this, to make sure these 
programs are administered correctly, that would not be adhering 
to the actual duties of our job.
    With that, Madam Chair, I urge for adoption of the 
amendment, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    I will recognize myself in opposition.
    Ranking Member Luetkemeyer, it has been a pleasure to work 
with you as our Committee exercises our oversight 
responsibilities of the Small Business Administration. This has 
been an unprecedented time for the SBA with additional funding 
and authority put in place to address the issues facing small 
businesses around the country. As we are all aware, there have 
been some challenges and growing pains with ramping up and 
implementing vital programs such as PPP and EIDL.
    While I appreciate the desire to provide more funding and 
support for the SBA Office of Inspector General, at this time, 
increasing the authorization by an additional $25 million over 
what is currently in the bill will exceed the rules of this 
budget reconciliation process. And I just want to make sure 
that we included $25 million in this bill for the Office of 
Inspector General.
    With that said, I will be voting no on this amendment but 
stand ready to work with you and Members of this Committee to 
carry out our responsibility and to support the work of the 
SBA's Office of Inspector General.
    Do any other Members wish to be recognized on the 
amendment?
    Is there any other further debate?
    Seeing none, the none, the question is on the amendment by 
the gentleman from Missouri.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Williams amendment.
    For what purpose does the gentleman from Texas seek 
recognition?
    Mr. WILLIAMS. I have an amendment at the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the amendment to the Committee 
print----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentleman is recognized for 5 minutes.
    Mr. WILLIAMS. Thank you, Madam Chairwoman.
    My amendment would make Planned Parenthood and any 
affiliates or clinic ineligible for a loan under the Paycheck 
Protection Program.
    When COVID-19 hit the United States, it was clear that we 
needed to provide relief to help keep small businesses afloat. 
However, just because we are facing a global pandemic, we 
cannot disregard our core principles to protect the lives of 
the unborn. Like many of my colleagues, I was outraged to learn 
that 37 Planned Parenthood affiliates were able to obtain over 
$80 million through the Paycheck Protection Program. Money that 
is intended to assist our most vulnerable small businesses 
during COVID should do just that and not fund abortions. 
Abortions are neither essential procedures nor healthcare, and 
we cannot allow the country's largest abortion provider to 
receive a second time loan.
    As COVID has continued to impact all aspects of American 
lives, our small businesses' aid programs should prioritize the 
most affected industries instead of giving funds to an entity 
that devalues the sanctity of life.
    For decades, Congress has passed the Hyde Amendment to 
prevent taxpayer dollars from going towards abortion. This 
bipartisan provision ensured that half the country that is 
vehemently opposed to abortion would not have to worry about 
their taxpayer dollars going towards this horrible practice. My 
amendment would similarly ensure taxpayer-funded programs 
designed for small businesses are not being accessed by the 
largest abortion provider in the country. I am proud to 
continue fighting for the unborn and urge everyone to support 
my amendment.
    I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Ms. CHU. Yes. This is Judy Chu.
    Chairwoman VELAZQUEZ. For what purpose does the gentlelady 
from California seek recognition?
    Ms. CHU. I would like to strike the last word.
    Chairwoman VELAZQUEZ. The gentlelady is recognized for 5 
minutes.
    Ms. CHU. Madam Chair, I urge a strong no vote on this 
amendment.
    I find it very troubling that our Republican colleagues 
have taken their time to engage in partisan attacks on Planned 
Parenthood Health Centers by using a public health crisis to 
attack access to essential reproductive healthcare. For 
decades, nonprofits such as Planned Parenthood have played an 
integral role in the social and economic well-being of the 
U.S., and for that reason, the CARES Act made 501(c)(3) 
nonprofits eligible for PPP loans.
    Planned Parenthood and its workers are on the frontlines 
providing vital healthcare services through the pandemic. For 
many patients, local Planned Parenthood Health Centers are the 
only source of healthcare. The unfortunate reality is the 
pandemic has made existing barriers to care worse for many of 
the communities they serve. This care is needed now more than 
ever with STI rates soaring and increased barriers to sexual 
and reproductive healthcare during this public health crisis.
    Planned Parenthood Health Centers also create jobs that 
benefit cities and states spurring economic growth. Paycheck 
Protection Program loans have ensured that health centers can 
retain staff and continue to provide patients with essential 
time-sensitive sexual and reproductive health care during this 
crisis. Now, more than ever, we know the importance of a strong 
healthcare workforce.
    Let me remind you that Planned Parenthood Health Centers 
are located in a diverse set of communities, and in fact, 57 
percent are in rural or medically-undeserved areas. This is 
just another Republican attack on the healthcare for Americans 
whose only access to reliable, safe, and cost-effective 
treatment is in these centers. This is not the time to play 
politics. It is certainly not the time to reduce access to 
critical healthcare.
    While local Planned Parenthood Health Centers are focusing 
on providing critical healthcare for the communities during 
this pandemic, anti-choice extremists are focused on attacking 
critical safety net providers. And in fact, according to the 
Johns Hopkins University, the nonprofit workforce has lost 
930,000, nearly a million, compared to pre-COVID levels 
representing a 7.4 percent decline from its pre-pandemic 
levels.
    Planned Parenthood, like other nonprofits, such as the 
YMCA, Boys and Girls Club of America, United Way, and Goodwill 
met the requirements of the PPP program. In fact, each Planned 
Parenthood member organization is its own independent, not-for-
profit tax-exempt organization with an independent board of 
directors that is the sole decisionmaker for all governance, 
finance, and operations of its organization. And, we see none 
of the same type of treatment given by Republicans for other 
organizations like hate groups, anti-vaccine groups, anti-
abortion crisis pregnancy centers, and Trump and Kushner 
properties, all of which received PPP loans.
    It is critical that PPP be implemented in a uniform manner 
that does not target any entity for exclusion, especially if 
you are doing it for political ideology.
    I strongly oppose this amendment and urge my colleagues to 
vote no.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Is there any further debate on the amendment?
    Mr. LUETKEMEYER. Madam Chair, this is Luetkemeyer from 
Missouri. I ask to be recognized.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. I move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    I support the gentleman from Texas's amendment and urge its 
adoption. The conversation about who can take Paycheck 
Protection Program or Economic Injury and Disaster Loans has 
been going on for almost a year. However, this specific 
amendment addresses not only a conversation but a battle that 
we have continuously fought our Democratic colleagues for 
decades. It is a fight for human lives, for the unborn, and our 
constituencies yet to be heard. Under no circumstances should 
there be any loopholes present in legislation drafted by 
Congress that would allow Planned Parenthood from profiteering 
on our citizens' tax dollars.
    The comment was made previously that we are playing 
politics with this amendment. I would argue that the majority 
party is playing politics with this issue again knowing the 
passion that we have on our side for this issue against what 
they are trying to do. Time and time again, we have had to stop 
the reckless funneling of American tax dollars into the 
abortion-selling business.
    Let me be very clear. Main street businesses which have 
suffered throughout the pandemic deserve the support of 
Congress, but giant corporations that quite literally suck the 
life out of people do not. This amendment supports our small 
businesses, which provide opportunity and income to families 
and communities and prevents dollars from going to an 
organization that seeks to do just the opposite.
    I urge its adoption, and with that, Madam Chair, I yield 
back.
    Chairwoman VELAZQUEZ. The gentlemen yields back.
    Is there any further debate on this amendment?
    Let me say that I am in opposition. I claim 5 minutes in 
opposition to this amendment.
    You know, as we enter the vaccine distribution phase, 
Planned Parenthood affiliates have indicated that they are 
willing to help distribute the vaccine. And Planned Parenthood, 
like other nonprofits, are integral to the economic well-being 
of their community. They provide quality, high-paying jobs in 
their communities. And Planned Parenthood, like other 
nonprofits such as the YMCA, Boys and Girls Club of America, 
United Way, and Goodwill, they met the requirements of PPP 
program, so there is no reason why we need to discriminate 
against Planned Parenthood. For that reason we ask a no vote.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Texas.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it.
    Mr. WILLIAMS. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The amendment is not agreed to.
    Mr. WILLIAMS. I request a recorded vote, Madam Chair.
    Chairwoman VELAZQUEZ. A recorded vote has been requested.
    Is there a sufficient second?
    There is a sufficient second.
    A roll call vote is ordered.
    Pursuant to Committee Rule 13 and House Rule 11, further 
proceedings on the amendment are postponed.
    We now consider the Williams second amendment.
    For what purpose does the gentleman from Texas seek 
recognition?
    Mr. WILLIAMS. I have an amendment at the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1 to the amendment to the Committee 
print offered by Mr. Williams----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentleman is recognized for 5 minutes.
    Mr. WILLIAMS. Thank you, Madam Chairwoman.
    My amendment would direct the administrator of the SBA to 
make sure that previously passed relief programs within the SBA 
are operational and getting money to businesses in need before 
they take on any additional projects in this new bill.
    Last July, I was proud, as I said, to introduce the Save 
Our Stages Act to provide grants to independent music venues 
impacted by COVID-19. These businesses were some of the first 
to close their doors because of the pandemic and will be some 
of the last to reopen. Without Federal assistance, these 
cultural staples of their communities would never be able to 
survive the mandated government shutdowns.
    In the relief package we passed in December, a version of 
Save Our Stages, called the Shuttered Venue Operator Grant 
Program, was included to provide much-needed relief to music 
venues and other heavily affected industries. These venues were 
thrilled that they were finally being received and having some 
assistance. However, it is now February, looking at March, and 
this program is still not accepting applications and getting 
money out the door.
    As the businesses wait for this program to become active, 
they are excluded from tapping into other forms of small 
business relief. This is forcing businesses to decide between 
waiting for this program and it is tailored to their unique 
needs to begin accepting applications or applying for PPP to 
receive immediate assistance.
    It has now been 45 days since the program was signed into 
law, and it is unacceptable that these businesses still cannot 
apply. Instead of continuing to ask and task the SBA with more 
programs to manage, they must first prioritize the programs 
they have already been authorized by law to do. The livelihoods 
of small business Americans are at stake and we owe it to them 
to follow through on our promises. I urge everyone to support 
my amendment and help get the Shuttered Venue Operator Grant 
Program up and running. It is good for America. It means more 
jobs.
    I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Mr. LUETKEMEYER. Madam Chair, this is----
    Chairwoman VELAZQUEZ. Ranking Member, for what purpose are 
you seeking recognition?
    Mr. LUETKEMEYER. I ask to be recognized.
    I move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    I support the gentleman from Texas's amendment and urge its 
adoption.
    Over the last year, Congress has worked in a bipartisan 
manner to create, administer, and oversee a multitude of new 
programs and initiatives designed to respond to the COVID-19 
pandemic. These small business, through no fault of their own, 
have been forced to close their doors. Or if they are lucky 
enough to live in certain states, allowed to operate at 50 
percent, 25 percent capacity due to state or local ordinances. 
The bottom line is we need to reopen our country. The gentleman 
from Texas's amendment prioritizes the established programs 
that Congress has already created to respond to this pandemic 
as opposed to anything new that may or may not work. We have 
the tools in place already to solve this. This amendment 
prioritizes those recognized solutions to ensure small 
businesses have a clear lay of the land as they lead us out of 
these difficult times.
    With that, Madam Chair, I urge the adoption, and I yield 
back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I will claim time in opposition.
    This amendment offered by my colleague, Mr. Williams, will 
violate the Byrd Rule in the Senate. While I understand the 
concerns that SBA must publish rules and issue guidance 
quickly, we have to get the economic relief out to small 
businesses without delay. While I oppose the amendment, I 
assure the gentleman that I will work with you to send a letter 
to SBA to ensure concerns are being addressed.
    And with that, I yield back.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Texas.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Meuser Amendment.
    For what purpose does the gentleman from Pennsylvania seek 
recognition?
    Mr. MEUSER. Madam Chairwoman, I have an amendment at the 
desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the amendment----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentleman is recognized for 5 minutes.
    Mr. MEUSER. Thank you, Madam Chair.
    When Congress reopened the PPP program for a second round, 
the intent was to tailor these funds to businesses that were 
most impacted by the pandemic. As the rule is currently 
written, businesses are eligible for a second draw of PPP if 
they have less than 300 employees, they have used their first 
PPP loan for eligible expenses and can demonstrate at least a 
25 percent reduction in revenue from 2019 to 2020. To calculate 
the 25 percent revenue reduction, a borrower must compare gross 
receipts from one quarter in 2020 to the corresponding quarter 
of 2019. Many small businesses, however, do not follow 
traditional calendar quarters. Hospitality businesses, for 
instance, often vary from 52 to 53 weeks but do not necessarily 
have to end on the last day of the month causing confusion and 
limiting opportunities for these businesses.
    Additionally, the greatest loss in revenue for many of 
these businesses occurred in March, April, and May last year, 
which fall over 2 calendar quarters. So to resolve this issue, 
my amendment would change the parameters for PPP to allow 
borrowers to calculate a 25 percent reduction over a 90-day 
period as opposed to a calendar quarter which would allow a 
business to count their revenue when it was most impacted.
    For example, a business would calculate the start of the 
90-day period on March 13, for instance, the start of the 
shutdown, and end it on June 12. This simple fix would allow 
more businesses the opportunity to be eligible for the second 
round of PPP funds they need and deserve.
    I would like to thank the work of my friend, Congressman 
French Hill and Ranking Member Luetkemeyer, who put in the 
effort to create this amendment, and I encourage my colleagues 
to support this amendment.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Mr. LUETKEMEYER. Madam Chair?
    Chairwoman VELAZQUEZ. The Ranking Member----
    Mr. LUETKEMEYER. Luetkemeyer from Missouri.
    Chairwoman VELAZQUEZ.--is seeking recognition for what 
purpose?
    Mr. LUETKEMEYER. Move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    I support the gentleman from Pennsylvania's amendment and 
ask my colleagues to support it as well. This should be one 
that we should all agree on and there should be no concern.
    What we are doing here is over the past year I have been 
with countless small businesses and been on calls with them, 
not just the ones in my district in Missouri that I have had 
the privilege to speak with, but small businesses across the 
country.
    One of the most critical things that they talk about is the 
need for more flexibility. This is precisely what Mr. Meuser's 
amendment does. It provides small firms with a greater 
flexibility on their second draw of PPP funds. Instead of 
having to choose one of four rigid calendar quarter 
designations to demonstrate their 25 percent revenue loss, Mr. 
Meuser's amendment allows these firms to choose any contiguous 
90-day period within 2020 to qualify. This is a common-sense 
fix that will help millions of small businesses qualify for the 
second PPP loan program. This is something I am sure you, Madam 
Chair, and all the Members on the other side of the aisle, you 
face the same question from the small businesses in your 
district that are wanting to qualify for PPP, constantly 
getting questions with regards to this 90-day period. This does 
exactly what they want, gives them the flexibility that I think 
they need to be able to qualify. I think the gentleman has got 
a common-sense amendment. I certainly would urge everyone to 
adopt the amendment.
    And with that, I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on the amendment?
    Mr. HAGEDORN. Madam Chair, it is Hagedorn. I would like to 
strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. HAGEDORN. Thanks. I will be very brief.
    I agree with the amendment here that has been offered by 
Congressman Meuser and in the words of our ranking Republican, 
Mr. Luetkemeyer, the small businesses that we talk with just, 
they want flexibility. They need the flexibility. And the 
Committee has been very good in the past about coming up with 
ways to provide flexibility for our small businesses. For 
instance, how they were going about spending the Paycheck 
Protection money. In this case I think it just makes a lot of 
sense. And I would like to associate myself with the remarks of 
the author of the bill and Mr. Luetkemeyer. Thanks very much.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now I am going to claim my time in opposition.
    The amendment is problematic for a couple of reasons. Do 
you have a cost estimate for this amendment? Without a cost 
estimate, we cannot move forward on this amendment with 
confidence that it will not violate reconciliation 
instructions. While I really appreciate your efforts, we cannot 
lose sight of our main focus here, and that is to provide 
economic relief to the underserved and hardest hit communities 
quickly. F or that reason I oppose the amendment.
    Any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Pennsylvania.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Meuser second amendment.
    For what purpose does the gentleman from Pennsylvania seek 
recognition?
    Mr. MEUSER. Madam Chairwoman, I have an amendment at the 
desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1 to the amendment to the Committee 
print offered by Mr. Meuser, page 11----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed. The gentleman is recognized 
for 5 minutes.
    Mr. MEUSER. Thank you.
    Prior to the pandemic, the SBA 7(a) Loan Program was SBA's 
most common loan program and served as a critical tool for 
small businesses to get access to capital. The 7(a) Loan 
Program helps small businesses secure loans by guaranteeing a 
portion of the loan, limiting fees, and lowering interest 
rates. This program allows small businesses who might not be 
able to obtain a loan through traditional sources access to the 
funding they need to get back on their feet. These loans serve 
as a bridge for small businesses and can be used to acquire 
business essentials like real estate property, inventory, 
working capital, refinancing debt, and purchasing equipment. In 
Fiscal Year 2019, SBA made approximately 52,000 7(a) loans 
totaling more than $23.17 billion. In the SBA's Easton, 
Pennsylvania district where many of my constituents work, in 
Fiscal Year 2019, more than 1,360 loans totaling more than $517 
million went out to support small businesses. Currently, the 
maximum loan amount a business can receive from the traditional 
SBA 7(a) Loan Program is $5 million. My amendment would simply 
expand the maximum loan amount from $5 million to $6 million in 
just over a 1-year period. As businesses struggle to overcome 
the challenges of the pandemic, I believe it is important that 
we provide sufficient access to such capital as the businesses 
who need it most.
    I urge my colleagues to support this amendment and yield 
the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Mr. CROW. Madam Chair, it is Jason Crow seeking time in 
opposition.
    Chairwoman VELAZQUEZ. the gentleman is recognized for 5 
minutes.
    Mr. CROW. Thank you, Madam Chair.
    I am going to start by just saying I appreciate Mr. 
Meuser's suggestions here and the spirit with which he offers 
this amendment. And I do agree that improvements need to be 
made to many of our SBA programs. In fact, this Committee, as 
you know, has a very long history of working collaboratively to 
find ways to improve, to get the relief to our businesses that 
need it the most.
    But the manner in which this is being done is not the 
manner to do it for two reasons. Number one, we have a lot of 
very complex needs that we are facing here with these programs. 
The purpose of this hearing and this bill and the process that 
we are going through today is to get relief as quickly as 
possible to those businesses that are struggling the most just 
to keep their doors open right now during this pandemic. We are 
going to go through a longer process through regular order for 
the rest of this session to address these longer-term fixes 
that are needed to the programs. But to get the need and the 
relief that is necessary to our businesses as quickly as 
possible I think is something that we can all come together and 
work towards.
    The second is just the nature of the amendment itself is to 
raise, to increase the maximum loan amount of the 7(a) program 
from $5 million to $6 million. Now, this is a fantastic 
program, the 7(a) program, and it is a program that all of us 
support. But one of the biggest challenges to this program is 
not necessarily the maximum loan amount but what we hear 
frequently is the vast majority of folks, the truly mom and pop 
businesses, the small business that are not applying for the 
maximum, that are applying for much lower amounts, they are 
having a hard time getting it. We need to work collaboratively 
to figure out how we can get that money to those smaller 
businesses much quicker and much more effectively. We think 
that is the priority, not necessarily increasing at this point 
in this particular process that maximum loan amount. And that 
is why I will oppose that amendment with a promise to work with 
you, Mr. Meuser, to address the spirit of your amendment in the 
months and years ahead, but I would encourage all of my 
colleagues to oppose this amendment.
    Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on this amendment?
    Mr. LUETKEMEYER. Madam Chair, this is the Ranking Member.
    Chairwoman VELAZQUEZ. The Ranking Member is recognized for 
5 minutes.
    Mr. LUETKEMEYER. Thank you. I move to strike the last word.
    Just very quickly, I think what the gentleman is trying to 
do in this amendment here is to adjust the loan amount that the 
SBA can do in response to the situation we have. Now, you all 
know, those of you who have been on this Committee before, that 
we were always adjusting these amounts based on the need, based 
on inflation, based on in this situation, the COVID situation, 
the loans need to be bigger so the response can be bigger to be 
able to handle the needs of the people that we are servicing 
with these loans. To me, this makes common sense. We do this 
all the time.
    In response to the previous individual who said this is 
more long-term, this also can be very immediate, number one. 
And number two, there is another program within, not this 
particular section of the bill but the Financial Services 
section of the bill that deals with SSBCIs that actually is 
structuring the money to be going out over the next 10 years. I 
argued it at the last Committee hearing that I was in with that 
about we need to be doing it on an immediate basis, not over 
the next 10 years. And so now I hear we want to do it on an 
immediate basis in 10 years which is just the opposite of what 
is going on in this bill. But what Mr. Meuser is trying to do 
is to allow for the immediate help of needs as we see the needs 
of these businesses exponentially go up out here because of the 
COVID situation. And remember, these loans are made through 
banks, guaranteed, so that, you know, there is some oversight 
there.
    I am supportive of this amendment. I think it is very 
timely, and I think it meets a need that definitely is going to 
be there. If it is not already, it is going to be there very 
shortly.
    I ask the adoption of the amendment. With that, I yield 
back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on this amendment?
    I oppose the amendment and I will ask the Members to oppose 
it.
    This is the type of, the 7(a), the 504, all those lending 
programs under SBA, we will be revamping those programs for the 
long term. We care about the next step for a long-term economic 
recovery, but this is not the place. And we will welcome your 
input. We are going to be holding hearings, and we will deal 
with revamping those lending programs on another day.
    With that, is there any other Member who wishes to be 
recognized for the purpose of discussing this amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Pennsylvania.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Garbarino amendment.
    For what purpose does the gentleman from New York seek 
recognition?
    Mr. GARBARINO. Thank you, Madam Chairwoman. I have an 
amendment at the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the amendment to the Committee 
print offered by Mr. Garbarino.
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentleman is recognized for 5 minutes.
    Mr. GARBARINO. Thank you, Madam Chairwoman.
    Small businesses across the country have been crippled, not 
just by the effects of but also the response to the COVID-19 
pandemic. None has been hit harder than the restaurant 
industry. What was the second largest private sector employer 
in the country has now seen more than 110,000 restaurants close 
since the pandemic began 1 year ago. That is one in six of 
every restaurants closed in the country in the span of a year. 
These small, family-owned entrepreneurs need our help and 
assistance, and they need it now.
    Here on Long Island, we have seen a once vibrant and 
successful restaurant industry turn on its head with pubs, 
eateries, casual and fine dining restaurants, as well as 
catering halls shuttered in the wake of coronavirus shutdowns 
and restrictions. Employment in Nassau and Suffolk counties for 
foodservice and drinking establishments decreased from 98,900 
in December 2019 to 68,500 in December 2020. That is a decline 
of 30,400 people working in the foodservice industry. In nearby 
New York City, known to some as the restaurant capital of the 
world, their restaurants are still closed for indoor dining. 
These restaurants have done everything asked of them to try to 
open and be safe, but the government keeps moving the goalpost.
    They need our help and they need it now, and I am happy 
that so many of my colleagues have spoken in favor tonight of 
the need to help restaurants and their support for the 
Restaurants Act. I also am a co-sponsor of the Restaurants Act, 
a bill that would inject $120 billion in restaurant relief for 
these struggling small businesses. I am hopeful that 
legislation will receive consideration by this Congress. 
However, until that time, I am calling on this Committee to 
support an amendment before you which will increase the 
appropriation to the Restaurant Revitalization Fund from the 
proposed $25 billion to $45 billion. The proposed $25 billion 
in assistance to the Restaurant Revitalization Fund in this 
Committee print is insufficient. It does not even come close to 
the amount of the assistance that these small businesses need 
to survive.
    I request that everyone accept this amendment.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    For what purpose is the gentleman from Pennsylvania seeking 
recognition?
    Mr. EVANS. I want to be recognized to oppose this 
amendment.
    Chairwoman VELAZQUEZ. The gentleman has an amendment at the 
desk?
    Mr. EVANS. No.
    Chairwoman VELAZQUEZ. Sorry. In opposition.
    Mr. EVANS. Opposition, yes.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. EVANS. Thank you, Madam Chair.
    I am very supportive of the Restaurant Revitalization Fund. 
For months I have been hearing from restaurants in my district 
about the need to pass the bill which will provide $120 billion 
for grants to restaurants. I fully support that bill. The 
Restaurant Revitalization is based on that bill. While it has 
not received full funding, it received $25 billion to start as 
the Small Business Committee was only able to give $50 billion 
to the budget. That simply is what we can do without breaking 
the requirement.
    That said, we will be happy to work with you on the future 
legislation to provide more funding to this critical program 
should a need arise. Considering this amendment would only put 
the Small Business Committee outside the budget requirement of 
this bill.
    I urge my colleagues to vote no against this amendment, and 
I thank you, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Mr. LUETKEMEYER. Madam Chair, this is the Ranking Member.
    Chairwoman VELAZQUEZ. The gentleman is seeking recognition?
    Mr. LUETKEMEYER. To strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    The gentleman is trying to be proactive here and actually 
fund this program to where it probably is going to need to go 
if you are serious about actually helping restaurants and the 
way you structured this program. Quite frankly, the way you 
structured it is basically every restaurant out there can 
qualify for this grant. And it is a grant. So you are going to 
have everybody lining up. The testimony in this Committee today 
said there were half a million restaurants still out there that 
were operating with another 110,000 either closed up or 
temporarily closed up. If you just take the 500,000 restaurants 
and divide that into $25 billion, that is $50,000 per 
restaurant. And this program has got, if you read through it, 
the amounts are capped I think somewhere around $10 million per 
restaurant. That fund is going to be out of dollars by the end 
of the month. What the gentleman from New York is trying to do 
here is actually get this thing funded. If you really were 
serious about helping restaurants and you really want to be 
able to fund them at the rate we need to, that is what he is 
actually trying to do.
    So I think we are going to be back here again very shortly 
trying to find some more money for this program, mark my words, 
if you do not change the structure of it, change the 
qualifications of it, and do not change the amount of money in 
it, we will be back here. I will guarantee you. And I certainly 
will remind you that I made this statement.
    With that, I urge the adoption of the amendment, and I 
yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Ms. NEWMAN. Yes, I do, Madam Chair.
    Chairwoman VELAZQUEZ. Can you please----
    Ms. NEWMAN. Marie Newman.
    Chairwoman VELAZQUEZ. The gentlelady is recognized for 5 
minutes.
    Ms. NEWMAN. And I will not take that long. I just want to 
make a couple of comments.
    I know there has been respectfully a lot of talk about 
bipartisanship and the Committee is bipartisan which is great 
and that is my expectation, and I cannot wait to work on some 
of these programs that are not making their way into them. But 
here is what I will say, and let's just all be very real with 
one another that there was 8 months of ability to have 
bipartisanship in between the first Relief Act and the second. 
With that, I agree with the Ranking Member. I think he is 
insightful. We will be back together, and I hope there is 
bipartisanship then. But I just want to remind everyone that 
that 8 month period caused about 1,000 restaurants in my 
district money they could have used. I love that they are on 
board now, but they had 8 months to be on board. Let's remember 
where we all were and let's get back together after this act 
gets out and get them some money and prevent another 1,000 
restaurants from losing their livelihood.
    Thank you very much, and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Do other Members wish to be recognized on the amendment?
    Mr. DONALDS. Yeah, Madam Chair, I do wish to be recognized.
    Chairwoman VELAZQUEZ. Who is seeking recognition, please?
    Mr. DONALDS. Mr. Donalds, the gentleman from Florida.
    Chairwoman VELAZQUEZ. The gentleman is recognized.
    Mr. DONALDS. Thank you, Madam Chair.
    My points are pretty simple. I was hearing the last remarks 
and obviously, I am new here. Just came in in the 117th, but 
one thing that has been clear to me having been in Florida's 
legislature last year is that this 8 months in question where a 
bipartisanship could have been accomplished there was no desire 
to negotiate from the current Speaker of the House. I think for 
the record it should be clear that the current speaker had an 
opportunity to negotiate well beyond what she chose to do in 
this 8 month period. And so while restaurants in my former 
House district and now my current congressional district that 
were suffering just like in the gentlelady's district, just 
like in just about every district for the Members of this 
Committee, I think the record needs to be clear that the 
negotiation goes both ways and the current speaker was 
unwilling to do so. Hopefully, that changes going forward.
    I yield back the rest of my time.
    Chairwoman VELAZQUEZ. The gentleman----
    Ms. NEWMAN. Can I make one more comment, Chairwoman?
    Chairwoman VELAZQUEZ. Who is seeking recognition, please?
    Ms. NEWMAN. It is Marie Newman again from Illinois.
    Chairwoman VELAZQUEZ. I am going to recognize myself and I 
will yield to Ms. Newman.
    Ms. NEWMAN. Thank you very much. I appreciate that. And I 
appreciate the gentleman from Florida's comments, and I am 
looking forward to more bipartisanship as we move forward.
    But again, the goalpost, I just want to be clear in what 
actually happened, is the goalposts were moved at every 
juncture. It is on the record. It is in writing. We know that 
the goalpost got moved by the Republican Party several times. 
So while I am thrilled, look, I am thrilled that every wants to 
be bipartisan after we get some money out to them, and I want 
to do more, and it sounds like you genuinely want to do more, 
so I am looking forward to that. But I want to be clear that 
that negotiation was not a negotiation, that the goalpost moved 
every single time that they came back to say yes. So, I just 
wanted that in the record as well.
    And I yield back and thank you very much.
    Chairwoman VELAZQUEZ. Reclaiming my time, I just would like 
to say that I fully agree with my colleagues that restaurants, 
bars, and other eateries have been disproportionately impacted 
by the coronavirus. The second largest private employer in the 
country is vital to both main street and the overall economy. 
But let me also remind my colleagues that how many relief 
packages have gone through the House and we were not able to 
get a restaurant grant or legislation to help the restaurant 
industry. For the first time today we are creating a $25 
billion grant program to assist restaurants across the country.
    So even though I recognize the importance of providing more 
money for the restaurants, appropriating 90 percent of the $50 
billion to one industry at this time neglects the needs of 
other small businesses. And the Committee heard testimony last 
week of the struggles of a theater owner that said that the 
pandemic has nearly wiped out his business. The National 
Association of Theaters estimates that 75 percent of movie 
theaters will be insolvent this spring unless they receive 
financial aid. Those businesses deserve our support.
    Again, I am willing to work with my colleagues to find ways 
to support main street restaurants, but I must oppose this 
amendment.
    Mr. MFUME. Madam Chair?
    Chairwoman VELAZQUEZ. For what purpose does the gentleman 
from Maryland seek recognition?
    Mr. MFUME. I move to strike the last word, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. MFUME. Just a point of fact in this discussion. I 
appreciate the gentleman from Florida saying that he was not 
here last year and sort of recanting the efforts or the lack 
thereof of what he considered to be the speaker's attempts to 
find a way to reach a compromise, what was then known as the 
Heroes Act.
    We actually lost 115 days before the majority leader in the 
other body, the gentleman from Kentucky, bothered to meet to 
discuss anything at all. In fact, it was the majority leader in 
the other body who said that the bill was ``dead on arrival.'' 
Those are not my words; those are his words. And that occurred 
2 days after passage. The negotiations that did start started 
after 115 days, and they were not really negotiation. It was 
more like take it or leave it. Let's just make sure that we are 
accurate and factual here with respect to the speaker's efforts 
which were clear. And let's be mindful of the fact also that 
the negotiation did not occur because the distinguished 
gentleman from Kentucky, the majority leader in the other body, 
said that that was dead on arrival. I am glad that we are at 
this point. Madam Chair, I would have been remiss though if I 
did not at least recant what the actual facts were regarding 
the time that was lost because of no negotiations.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from New York.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is----
    Mr. GARBARINO. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote.
    Is there a sufficient second?
    There is a sufficient second. A roll call vote is ordered.
    Pursuant to Committee Rule 13 and House Rule 11, further 
proceedings on the amendment are postponed.
    We will now consider the Garbarino second amendment.
    For what purpose does the gentleman from New York seek 
recognition?
    Mr. GARBARINO. Madam Chairwoman, I have an amendment at the 
desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentleman is recognized for 5 minutes.
    Mr. GARBARINO. Thank you, Madam Chairwoman.
    Our nation's small businesses are facing unprecedented 
economic disruption due to the outbreak of the COVID-19 
pandemic. The CARES Act created the Paycheck Protection Program 
and expanded the Economic Injury Disaster Loan, the EIDL 
program in response to the economic disruption appropriating 
hundreds of billions of dollars to assist small businesses 
affected by health and economic crisis. The PPP provides loans 
to help businesses keep their workforce employed during the 
COVID-19 crisis and the EIDL program is designed to provide 
economic relief to small businesses and nonprofit organizations 
that are experiencing a temporary loss of revenue due to 
unforeseen disasters and crises.
    I know many businesses and not-for-profits that have been 
saved due to these programs. This proposed amendment would 
prohibit the administrator of the Small Business Administration 
from providing any covered SBA assistance, including PPP loan, 
a second draw PPP loan, EIDL loan or EIDL Advance to an 
individual or a business concern owned or controlled by an 
individual who is convicted of a nonconsensual sex offense, or 
convicted of assaulting a police officer, or convicted of a 
crime of violence under Federal or state law during the 5-year 
period ending on the date on which the covered SBA assistance 
would be provided. This amendment is justified by the following 
statement of the SBA in addition to following other legal 
statutes. This is what the statement was. ``It is not in the 
public interest for SBA to extend financial assistance to 
persons who are not of good character.'' This amendment 
codifies that statement into law.
    Madam Chairwoman, I ask that the Members approve this 
amendment.
    Thank you, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Well, I oppose the amendment by my colleague, Mr. 
Garbarino, that will exclude persons convicted of certain 
violent or sexual felonies or misdemeanors from obtaining PPP 
and EIDL funds. First and foremost, COVID-19 relief is for 
existing businesses and current business owners with a proven 
reentry track record. This amendment also violates the spirit 
behind the bipartisan Fair Chance Act that was signed into law 
last Congress. Every year, thousands of individuals return to 
their community seeking to rebuild their lives. In 2020, more 
than 41,000 incarcerated individuals were released from Federal 
prisons, and more than 97 percent of the nation's 151,600 
Federal inmates will eventually be released. The formerly 
incarcerated face significant barriers to reentering the 
workforce, including bias against hiring individuals with 
criminal records, little access to education, and ineligibility 
for public benefits. Studies have shown that individuals 
released from prison who found employment were less likely to 
recidivate. Entrepreneurship can play a key role in helping 
these individuals overcome barriers to reentry and successfully 
transition back into the workplace and their communities. That 
is what we all want. That is what communities and families are 
aspiring, that these people that are released that have 
complied with everything that they have been asked to do that 
now are given a fighting chance. That is what it is all about, 
giving individuals a second chance. Therefore, those formerly 
incarcerated who have served their time and paid their debt to 
society should not continue to be penalized for past wrongs 
while trying to keep their small business afloat. To that end, 
I oppose the amendment.
    Do other Members wish to be recognized on the amendment?
    Mr. MFUME. Madam Chair?
    Chairwoman VELAZQUEZ. For what purpose does the gentleman 
seek recognition?
    Mr. MFUME. I move to strike the last word. And I would 
just----
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. MFUME. I would offer up in support of your reservation 
the fact that this amendment, while it may be well-intentioned 
is very, very far-reaching in terms of what it does. Because it 
says that a person convicted of a misdemeanor is not eligible 
for any sort of PPP funding, which means a lot of people are 
left out. Some Members of this distinguished body, perhaps, and 
in the other body who have been convicted of or found to have 
been convicted of a misdemeanor at some point in their lives, 
it means that Members of the current administration who may 
have been convicted of a misdemeanor at any point in their live 
is no longer eligible. It means that many people who are trying 
to rehabilitate themselves and for whatever reason may have 
been found guilty of a misdemeanor, even if they are a small 
business owner, is not eligible under this language. Because a 
misdemeanor, according to the dictionary, contains a definition 
that is so broad--trespassing, drunkenness in a public space, 
petty theft, marijuana smoking. I mean, we just wipe out a 
whole eligible group of small business owners who are small 
business owners not because they once had a conviction of a 
misdemeanor when they were younger but because they got their 
lives together and have developed the ability to help create a 
circle of flow of income in communities by establishing a 
business. And are now ineligible under the language here, which 
I think is just too broad. Again, I understand the intent. It 
is the effect that I really have problems with. I would yield 
back and I would support your reservation, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on the amendment?
    Mr. STAUBER. Madam Chair?
    Chairwoman VELAZQUEZ. Who is seeking recognition, please?
    Mr. STAUBER. Stauber, Minnesota 8. I would like to strike 
the last word and yield to Congressman Garbarino, please.
    Chairwoman VELAZQUEZ. The gentleman is recognized.
    Mr. GARBARINO. Thank you, Madam Chairwoman.
    Just to clarify this amendment, this does not apply to all 
misdemeanors. This only applies to convictions of violent 
misdemeanors. It does not apply to, as the previous gentleman 
just stated, marijuana smoking or drunkenness. Only violent 
crimes. Violent felonies, violent misdemeanors, sex crimes, sex 
assault crimes, and assaults against police officers. It is not 
as far-reaching as the gentleman had just suggested. It is 
violent misdemeanors, violent felonies, assaults against a 
police officer, and sexual assaults and convictions.
    Thank you very much, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Mr. MFUME. Madam Chair, if I might?
    Chairwoman VELAZQUEZ. If there is anyone that could claim 
time. Mr. Evans is recognized for 5 minutes.
    Mr. EVANS. I yield. I yield.
    Chairwoman VELAZQUEZ. The gentleman yields.
    Mr. MFUME. Thank you. I thank the gentleman from 
Philadelphia.
    I will only read the words which I have reacted to, and the 
words say that, ``No person convicted of a felony related to a 
nonconsensual sexual act convicted of or a misdemeanor.'' I am 
reading it the way it is written. And if I am in error then I 
stand to be corrected. But even if I am, I think the points 
that you have raised with respect to the punishing aspect of 
this for people who are already small business owners cannot be 
overlooked.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from New York.
    I ask all Members attending please virtually to unmute 
yourself for the roll call.
    All those in favor, say aye.
    All opposed, say no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Mr. GARBARINO. Madam Chairwoman, I request a recorded vote, 
please.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote.
    Is there a sufficient second?
    There is a sufficient second. A roll call vote is ordered.
    Pursuant to Committee Rule 13 and House Rule 11, further 
proceedings on the amendment are postponed.
    We will now consider the Kim amendment. For what purpose 
does the gentlewoman from California seek recognition?
    Ms. YOUNG KIM. Madam Chair, I have an amendment to the 
amendment at the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the amendment to the Committee 
print----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with. The gentlewoman is 
recognized for 5 minutes.
    Ms. YOUNG KIM. Thank you, Madam Chair.
    My amendment would simply repurpose $15 billion of unspent 
funds from the EIDL program into the new Restaurant Fund. 
According to the National Restaurant Association, our 
communities have lost at least 110,000 restaurants and over 2.5 
million jobs in the industry. In my state of California, the 
lack of direction from the governor's office has only made 
matters worse for small business owners and family-owned 
restaurants in my community.
    I have the honor of representing one of the most diverse 
districts in the country where many family-owned restaurants 
have been established for many generations. For many people in 
my community, it is hard to see some of the long-established 
restaurants close permanently because of this pandemic.
    Just last December, Congress decided to replenish the EIDL 
Advance grant program with an additional $10 billion. A large 
portion of that EIDL has not been used for that intended 
purpose. I ask a simple question: why are we thinking about 
repurposing the unspent funds we have allocated to provide aid 
for businesses that really need it? I invite my colleagues to 
repurpose this unspent EIDL funds so that we can get much 
needed aid in the hands of our restaurants right away.
    I urge my colleagues to support my amendment and let's go 
save our restaurants.
    With that, I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Do other Members wish to be recognized?
    For what purpose is the gentleman from Pennsylvania seeking 
recognition?
    Mr. EVANS. In opposition to the amendment.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. EVANS. While I appreciate my colleagues' effort to 
increase funding for the new grant program for restaurants, I 
am opposed to transferring money from the EIDL loan amount. 
Throughout Congress, we have fought so hard to ensure SBA EIDL 
program remains a well functional and well-funded program. At 
the same time, we have heard there are many industries that 
have been uniquely impacted by COVID-19 such as restaurants who 
have only been able to operate at a fraction of their 2019 
revenue.
    I believe the best text strikes the appropriate balance 
between their competing interests, both strengthening the EIDL 
and the Advance program and establishing a Restaurant 
Revitalization Fund. I am also deeply convinced that this 
proposal will severely limit the ability of the EIDL program to 
continue to reach the communities it has demonstrated 
effectiveness in reaching--immigrant-owned businesses, women-
owned businesses, minority-owned businesses, and micro 
businesses. Recently published data from the SBA shows the EIDL 
program was especially effective in reaching population states 
such as California, Florida, Texas, New York. California has 
about 12 percent of all U.S. businesses. They have received 18 
percent of all EIDL loans. We cannot afford to cripple such a 
unique, effective program at this time.
    For that reason I strongly, strongly encourage to vote no 
on this amendment.
    Thank you, Madam Chair. I yield back the balance of my 
time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on this amendment?
    Mr. LUETKEMEYER. Madam Chair, this is the Ranking Member. I 
request----
    Chairwoman VELAZQUEZ. The gentleman is seeking recognition.
    Mr. LUETKEMEYER. I move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair.
    This is similar to the amendment we had a while ago when 
they were trying to plus up the restaurant portion of the bill. 
And I think my comments, I will stand by them earlier, that if 
you really want to get serious about trying to fund this thing 
to where it needs to be you have got to put some more money in 
it. And what the lady does with this amendment is, if you read 
it very carefully, it says ``unspent funds from the Economic 
Injury and Disaster Loan Fund.'' It does not transfer all the 
money from it. What it does, it takes the unspent portion of 
it. These are funds that are not even going to be utilized. 
This is a smart way to redirect funds that are unspent and make 
sure they are repurposed someplace where they actually are 
needed instead of redirecting them someplace else where 
somebody has another priority of some kind.
    I think this is a really well-intentioned amendment. I 
think it is very well done, and I think we need to support it.
    With that, I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Do other Members wish to be recognized on the amendment?
    Is there any further debate on this amendment?
    Seeing none, the question is on the amendment by the 
gentlewoman from California.
    I ask all Members attending please to unmute yourself for 
the roll call.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Ms. YOUNG KIM. Madam Chair, may I ask for yeas and nays?
    Chairwoman VELAZQUEZ. The gentlelady has requested a 
recorded vote.
    Is there a sufficient second?
    There is a sufficient second. A roll call is ordered.
    Pursuant to Committee Rule 13 and the House Rule 11, 
further proceedings on the amendment are postponed.
    We will now consider the Kim second amendment.
    For what purpose does the gentlelady from California seek 
recognition?
    Ms. YOUNG KIM. Madam Chair, I have an amendment at the 
desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1 to the amendment to the Committee 
report offered by Mrs. Kim----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with.
    The gentlewoman is recognized for 5 minutes.
    Ms. YOUNG KIM. Thank you, Madam Chair.
    My amendment is very simple. It will require the Small 
Business Administration to submit a report to Congress on the 
waste, fraud, and abuse within the EIDL program since January 
1, 2020. If Congress is ready to provide additional funding for 
the EIDL program, we should also gather more information on 
ways in which Congress can limit fraud and protect taxpayers. 
While the Federal government has charged many individuals for 
submitting fraudulent loan applications, Congress needs more 
information from the SBA to learn more about how our Committee 
can act to reduce fraud.
    I implore my colleagues to join the effort to protect our 
taxpayers' hard-earned dollars and ensure that relief is 
getting into the right hands.
    I urge my colleagues to support my amendment, and with that 
I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Do other Members wish to be recognized on this amendment?
    Well, I am going to recognize myself in opposition to this 
amendment.
    This amendment offered by my colleague, Mrs. Kim, will 
violate the Byrd Rule in the Senate. While I understand the 
concerns of my colleague regarding waste, fraud, and abuse in 
the EIDL program, this reconciliation package is unfortunately 
not the vehicle to address them. Therefore, I am opposed to the 
amendment and I urge my colleagues to oppose it as well.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentlelady from California.
    I ask all Members attending virtually to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Due to votes in another Committee, the Committee stands in 
recess subject to the call of the Chair.
    [Recess]
    Chairwoman VELAZQUEZ. The Committee will come to order. The 
Committee will resume consideration of the amendment. We will 
now consider the Donalds first amendment. For what purpose does 
the gentleman from Florida seek recognition?
    Mr. DONALDS. Thank you, Madam Chair. I am out here just 
presenting this next amendment. Congress has allocated more 
than $796 billion to the PPP, and ultimately helped keep more 
doors open for more than 5 million small businesses. 
Considering the magnitude of this allocation, we saw several 
instances of bad behavior, by and large the program has been 
overwhelming successful.
    Chairwoman VELAZQUEZ. I am sorry, yes, I am sorry. I was 
distracted and I was also following the process here. The clerk 
will report the amendment.
    The CLERK. Amendment 1v1, see Amendments to the Committee 
Plan offered by Mr. Donalds.
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with. The gentleman now is 
recognized for 5 minutes. Sorry for that.
    Mr. DONALDS. No problem. My apologies, Madam Chair. Like I 
was saying, Congress has already allocated more than $706 
billion for the PPP program. Considering the magnitude of this 
allocation we have seen some issues, but by and large it has 
been very successful. PPP eligibility was extended to 
qualifying organizations under the 501(c)(3) statutes, 
including 501(c)(6)s, (19)s, and through administrative action, 
501(c)(12)s. These nonprofits are public charities, chambers of 
commerce, veterans' organizations, community utility service 
providers, and many, many more. In many cases these 
organizations are anchors in the communities they serve. They 
serve as financial and sometimes even spiritual resources to 
some of our most vulnerable Americans, the local thrift stores 
and food banks, the community churches, the American Legion. 
And I would also add it has been discussed in this Committee 
hearing that many child care centers, those that are your mom-
and-pop local child care centers who are either for-profit or 
501(c) status, also qualify today for the PPP program under the 
current eligibility of the program.
    You know, I think the plan that, you know, my colleagues on 
the other side of the aisle to expand 501(c) status to all 
501(c)(3)s except for 501(c)(4)s, I think is a bridge too far. 
I think what the Committee should have to remember and 
understand is that when you bring in these frankly massive 
nonprofit organizations, like the Planned Parenthood, who yes, 
they might have employees under 500 at one location, but in 
mass that organization has over 16,000 employees and annual 
funding exceeding $1.64 billion. I think it is important for 
the Committee to remember not too long ago that when you had 
companies like Steak Shack who were trying to take advantage of 
PPP, it was roundly frowned upon because of the size of those 
organizations. And I think it is important for the Committee to 
recognize that we should be doing the same here, staying 
focused on small businesses, being focused on small 
organizations and nonprofit organizations like community child 
care centers who are nonprofit or maybe for-profit, like the 
nonprofits who are our American Legions and things of that 
nature.
    It is also important to recognize that the current bill 
language allows for digital news organizations to be a part of 
a PPP program. I do not think it is wise at this point that we 
should expand eligibility to those organizations considering 
that fact that even to this Committee we can all clearly 
understand that the bowl of our small businesses are small 
restaurants, are small bars, or the ones who are truly, truly 
in need at this time due to local regulation, quite frankly, in 
a lot of our municipalities.
    This is why I am offering this amendment. The amendment 
will strike the provision to expand PPP eligibility and waive 
SBA affiliation rules. We cannot continue to fund a politicized 
bailout that is masked under the guise of COVID-19 relief. It 
is time for state and local government to let these businesses 
fully reopen, to let the market do what it does best, and that 
allows companies to earn money, as well as nonprofits to be 
able to get the resources they need through market organization 
that does not allow the state and local governments that 
continuously keep them locked down. The American taxpayer and 
future generations are the ones who have to carry the brunt of 
reckless legislation, excuse me, like this unwarranted 
expansion.
    I would also like to further add in closing that it was 
said before, I think it was Representative Meuser's amendment, 
that expanding, giving more flexibility to small businesses, 
that there were no fiscals assigned to that. I would add that 
if we do not, if we adopt my amendment and do not do a massive 
expansion of eligibility, there is probably more than enough 
financial flexibility to actually adopt the Meuser amendment 
and to be able to help a lot of these small businesses who 
truly need access to capital as quickly as they can so they 
keep their selves afloat.
    That is the amendment, Madam Chair, I yield back the rest 
of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back. Would 
further Members pleased to be recognized on the amendment?
    Ms. CHU. Yes, Madam Chair, this is Judy Chu and I want to 
move to strike the last word.
    Chairwoman VELAZQUEZ. The gentlelady from California, Ms. 
Chu, is recognized for 5 minutes.
    Ms. CHU. Madam Chair, I urge a strong no vote on this 
amendment, which will hurt certain nonprofits, such as labor 
unions, by excluding them from obtaining PPP loans. It would 
reverse something that is a great step forward in the COVID, 
and that is allowing all nonprofits to obtain PPP loans outside 
of T4s, including labor intensive nonprofit organizations with 
multiple organizations like local chapters of the YMCA and 
Goodwill.
    The nonprofit workforce, which is the third largest 
workforce in our economy, has already lost 930,000 jobs over 
the course of the pandemic, which is a 7.4 percent decline. But 
nonprofits have received far less support than other 
industries. In fact, we know that allowing nonprofits to 
participate in PPP is successful. That is why eligibility for 
nonprofits has only expanded since the program was created last 
year. Deliberately excluding certain nonprofits from PPP is not 
only unfair, it will be harmful to our economy by putting 
millions more workers at risk of unemployment. And it would 
deprive the countless Americans who rely on these organizations 
for services.
    By expanding PPP to all 501(c) nonprofits, 501(c)(5) labor 
unions will also be eligible for assistance. Millions of 
American workers represented by these nonprofit labor unions 
and their employees are facing the same economic distress as 
those of other organizations.
    But 501(c) types also include farm bureaus, cattle 
associations, outdoor associations, and groups that support 
world economy. And they will be hurt by this amendment. In 
December, Congress extended PPP to the 501(c)(6) nonprofits 
like trade associations and Chambers of Commerce that represent 
groups of businesses. This same treatment should be extended to 
the organizations that represent all groups of workers.
    Labor unions and their Members will play a critical role in 
the long-term economic recovery. This measure gives them 
economic security to survive the crises and continue advocating 
for workers. This is in light of the fact that this pandemic 
has been disastrous for workers. But despite since losing over 
300,000 Members at the start of this crisis, the share of 
American workers who are Members of a union slightly rose. That 
is because nonunion workers have lost their jobs at a higher 
rate than unionized workers demonstrates the incredible 
importance of worker representation.
    And by excluding organizations like Planned Parenthood, 
YMCA, and Goodwill that have multiple locations, my Republican 
colleagues are willing to leave Americans without support for 
the nonprofits that provide up-to-date information as well as 
resources on the pandemic meant to help assistance with the 
depressed and isolated communities and for the millions 
suffering from food insecurity or childcare for the essential 
workers. We cannot afford to let these organizations fail. We 
can, however, afford to include them in this program. We cannot 
let partisan politics pit small businesses against workers and 
nonprofits. Extending PPP to all nonprofit organizations is 
simply the right thing to do. We cannot imperil the economic 
recovery for millions of Americans just because they work for 
nonprofit organizations that Republicans oppose on ideological 
grounds.
    I urge my colleagues to vote no on this harmful amendment. 
And I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back. Do other 
Members wish to be recognized on the amendment?
    I also want to ask my colleagues to vote no on this 
amendment. And I just want to say, look, when you go home to 
your districts, look at who are the organizations that are 
helping us and that are helping the communities that are 
suffering, are the small business, are the not-for-profits. The 
bottom line is that all these group create jobs and add value 
in our communities, and therefore need our support right now.
    Nonprofit organizations provide a number of crucial 
services that are needed more now than ever, where there is 
public health resources and education that provide up-to-date 
information on the pandemic, mental health assistance for the 
depressed and isolated, community food banks for the millions 
suffering from food insecurity, or childcare for the essential 
workers. This is not the time to pick winners and losers. They 
have been left behind in the last relief package that we 
passed, and it is our duty to make sure that we protect workers 
in America, and there is no doubt in my mind that many of these 
not-for-profit not only are providing an important service to 
our communities, but are also creating jobs.
    Do other Members wish to be recognized on this amendment?
    There being none, the question is on the amendment by the 
gentleman from Florida. I ask all Members attending virtually 
to please unmute yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair the noes have it, the amendment 
is not agreed to.
    Mr. DONALDS. Madam Chair, I just wanted to request a 
recorded vote on the amendment.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote, and pursuant to previous comments, that will be 
rolled until the end.
    Pursuant to Committee rule 13 and House rule XI further 
proceedings on the amendment are postponed.
    We will now consider the Fitzgerald first amendment. For 
what purpose does the gentleman from Wisconsin seek 
recognition?
    Mr. FITZGERALD. As you know, Chair, I have an amendment at 
the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the Amendment.
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with. The gentleman is 
recognized for 5 minutes.
    Mr. FITZGERALD. Thank you, Madam Chair. This amendment is 
pretty simple. It just directs the administrator of the Small 
Business Administration to submit a report to Congress on the 
impact and increase in the Federal minimum wage to $15 per hour 
would have on small business. And you might ask why. And it is 
because I think this debate discussion in and around the 
increase in the minimum wage has not always been couched under 
the idea that we are in a global pandemic and what the impact 
might be on many, many of these small businesses that are 
currently hurting.
    There are also questions about the Byrd Rule and 
reconciliation whether it is appropriate for the increase in 
minimum wage. And then many of you may have seen that the 
Congressional Budget Office projected 1.4 million jobs would be 
lost if there was a $15 increase in the minimum wage. So, Madam 
Chair, it doesn't make much sense I think at this point to move 
forward with that provision.
    Chairwoman VELAZQUEZ. The gentleman yields back. Do other 
Members wish to be recognized on this amendment? The gentleman 
from Minnesota, Mr. Phillips.
    Mr. PHILLIPS. Madam Chair, I move to strike the last word. 
While I oppose this amendment at this time, I do wish to thank 
my colleague from Wisconsin for offering it. In fact, like many 
on this Committee, I share many of his concerns. I believe 
deeply, very deeply, in living wages for all working Americans, 
and often say that consumption is the engine of our economy and 
money in peoples' pockets is its fuel. In fact, the small 
business that my family and I own already pays a $15 minimum 
wage. Not because the law requires it, rather because it is a 
principle in which we deeply believe. The fact that a single 
mother in America can work a 40-hour week at a $7.25 minimum 
wage and live below the poverty line is as appalling as it is 
embarrassing to our nation. Congress must address this 
injustice just as it must meet the moment during the worst 
pandemic of our lifetimes and one of the most challenging 
economic crises of our lifetimes.
    However, I am troubled that we are adding the minimum wage 
policy to this COVID relief package through reconciliation. In 
fact, I was shocked to learn how few small business owners, the 
very people that this Committee is entrusted with representing, 
how few were consulted as this legislation was being drafted. 
And I am willing to wager that there is not a single Member of 
this Committee who is not receiving communications from local 
business owners concerned about the implications of this policy 
on the very viability of their enterprises.
    Just days ago I heard from Ken, the owner of the original 
Pancake House, one of my favorite restaurants in Plymouth, 
Minnesota. Like so many businesses which rely on public 
gatherings to succeed, he is barely hanging on. His restaurant, 
like all restaurants, runs on thin margins even during the best 
of times. And Ken is deeply concerned that a $15 minimum wage 
will mean that he will have to cut jobs if he hopes to stay 
open. Now I trust that we all agree that representation begins 
with listening and we should afford small business owners, just 
like Ken, the opportunity to be heard before we proceed with 
the implementation of such a transformative policy.
    According to the CBO, the policy, as written, will likely 
raise wages for 27 million Americans, raise almost a million 
Americans out of poverty, and increase aggregate wages by over 
$300 billion over 10 years. All of those are outstanding 
outcomes. But if that is at the expense of 1.4 million lost 
jobs, and the likelihood of many thousands of business closures 
as the CBO and economists anticipate, we should investigate, we 
should deliberate, and we should ultimately implement a 
mitigating policy that addresses those unacceptable and very 
preventable consequences.
    While we cannot accept this amendment because it does not 
meet the Senate parliamentary requirements relative to 
reconciliation, I do believe it is an important issue for 
businesses and employees that warrants a more robust discussion 
and deliberation in this body. So to that end, as my first 
order of business as the Chair of the Oversight and 
Investigation Subcommittee, I intend to invite American small 
businesses to come before our Committee to discuss the $15 
minimum wage proposal, its impact on their businesses, and how 
we might accomplish the trifecta of livable wages, more jobs, 
and thriving small businesses. They are not mutually exclusive 
objectives in my estimation, and I believe we can accomplish it 
if we simply commit to working together with intention and 
bipartisanship.
    So in closing, I would like to invite my colleague from 
Wisconsin to join me at that hearing and to work with me 
following this markup in sending a letter to the GAO requesting 
a study on the impact of a $15 Federal minimum wage on small 
businesses throughout our country. And with that, Madam Chair, 
I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Mr. LUETKEMEYER. Madam Chair, the Ranking Member wishes to 
be recognized.
    Chairwoman VELAZQUEZ. The gentleman is recognized.
    Mr. LUETKEMEYER. I move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair. The gentleman is 
making a point here with regards to the minimum wage that, you 
know, it is a very controversial issue, it doesn't need to be 
in this bill, number one, probably not going to be in it, 
probably get kicked out when it gets to the Senate. But, you 
know, number one, to have the wage set at a Federal level takes 
away the local folks' ability to be able to set the wage. The 
wages are different in New York than in my hometown here of 336 
people, and from state to state. I think we need to understand 
that an across the board blanket $15 an hour minimum wage does 
not really play well in different areas around the country 
where it actually probably makes sense in others.
    The NFIB filed a report just last week and in that report 
it said it would cost 1.6 million jobs and cost $2 trillion to 
our economy. In the January 26 Roll Call Magazine there is an 
article there. It says just one more blow. And down below it 
says, ``The restaurant industry, already wracked by COVIC 19, 
now faces a minimum wage hike.'' This is a headline in this 
paper. Everybody is talking about concern about restaurants and 
here you have it even in the Washington papers about the fact 
the minimum wage is a wage destroyer, it is a small business 
knife in the back. I am very concerned about this. I think the 
gentleman has done a good job with his amendment, I certainly 
support it, and I ask the Committee to support it was well.
    With that I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Mr. GARBARINO. Madam Chairwoman, it is Mr. Garbarino of New 
York.
    Chairwoman VELAZQUEZ. The gentleman is seeking recognition 
for? To strike the last word?
    Mr. GARBARINO. To strike last word.
    Chairwoman VELAZQUEZ. Is recognized for 5 minutes.
    Mr. GARBARINO. Thank you, Madam Chairwoman. And I just want 
to continue. I am from New York, as I said, and the state 
legislature here has increased the minimum wage. We voted a 
couple years ago and it will be up to $15 next year. However, 
when it was first increased something I heard not just from 
small businesses but from local governments, municipalities, 
towns, and cities that rely on summer employment of students, 
both high school and college students, to work at the parks, to 
clean the downtowns for summer jobs, to be lifeguards at the 
local town beaches, and when the minimum wage was increased in 
New York, the town, in order to comply with that, had to raise 
taxes. They couldn't cut the jobs because the parks still 
needed to be cleaned, they still need to be maintained, the 
beaches still needed to be watched or they would be shut down. 
So instead of shutting down services, the local municipalities 
had to raise taxes.
    And those taxes, the real property taxes, were just another 
increase on small businesses. So small businesses are not just 
going to have to deal with paying their employees more, whether 
it is a part-time employee student or someone who comes home 
from college or someone who has a full-time job and they are 
just looking for a second job on the weekend, they also have to 
deal with paying higher costs like taxes. The effects on small 
businesses is not just increase in their salaries, but also 
increase in other costs. And I think that needs to be included 
as well. So that is why I believe this amendment should be 
passed. I support my colleague because there are a lot of 
different costs that will affect small businesses here.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment? I am going to recognize 
myself in opposition to this amendment.
    Today's minimum wage is $7.25 an hour, which equates to a 
little over $15,000 a year. Let me repeat that, $15,000 a year. 
Just a reminder, the minimum wage was last raised in 2009. 
Since 2010, home prices and rent have both risen over 30 
percent. Minimum wage stayed the same. Since 2010, higher 
education has risen by nearly 40 percent, minimum wage stuck at 
$7.25. A gallon of milk, $2.69 in 2009 versus $4.12 in 2020. We 
all like a good hamburger, 3.99 in 2009 versus 5.24 in 2020. 
You guessed it, minimum wage is still $7.25.
    As it currently stands, the minimum wage cannot pay for a 
two-bedroom apartment anywhere in the United States. If rent 
can go up every year, so can the minimum wage. The real value 
of the minimum wage today has been eroded since 2010.
    And let me say this. This is also an issue where time and 
again Republicans prove themselves out of touch with the 
American people. In Florida they say that Donald Trump won last 
year. The minimum wage passed with nearly 61 percent of the 
vote. It is popular everywhere because it is the right thing to 
do. In fact, 20 states increased their minimum wage starting in 
2021, yet during the pandemic, because those states realized 
from line essential workers that are keeping us safe in 
hospitals, cleaning our buildings, and stocking our grocery 
shelves, deserve a raise. Even in the Ranking Member's home 
state of Missouri the minimum wage was raised to 10.35. That is 
higher than the 2021 increase to 9.50 under the Raise the Wage 
Act. The states are our laboratory of democracy, then the 
Federal Government should follow states like Alaska, Florida, 
and Ohio in supporting low-income workers.
    With that I yield back. And if there is any further debate 
on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Wisconsin. I ask all Members attending virtually 
to please unmute yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair the noes have it. The amendment 
is not agreed to.
    We will now consider the Salazar amendment, first 
amendment. For what purpose does the gentlewoman from Florida 
seek recognition?
    Ms. SALAZAR. Madam Chairman, I have an amendment at the 
desk, Amendment Number 17.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1, City of----
    Chairwoman VELAZQUEZ. Without objection, further reading of 
the amendment will be dispensed with. The gentlewoman is 
recognized for 5 minutes.
    Ms. SALAZAR. Thank you, Madam Chairman. The amendment that 
I am proposing would delay payments on economic injury disaster 
loans that are called as EIDL provided in response to the 
coronavirus for 1 year. Now we want to make it 2 years. This 
extension will allow small businesses who are still struggling 
with the economic hardships of the coronavirus to further 
recover before beginning to pay that initial loan that was 
given to them a year ago.
    As you know, EIDL is designed to provide small businesses 
with operating funds until they recover from disasters. In the 
past this has been used after floods or hurricanes, which are 
all very familiar in my district, South Florida. While the 
effects of the disasters can be months and even years, usually 
the disaster itself only lasts a few days or a few hours, like 
a hurricane. But Hurricane COVID has been here for almost 365 
days, something that is completely unusual and completely out 
of order.
    Because of this unique situation, I am proposing to extend 
the start of the loan repayment for 1 additional year. Just 
yesterday I went to Little Havana to a store where they used to 
sell clothes for 30 years, very well established, and they have 
one very big problem: COVID is still here. They are not 
selling, and they cannot start paying for the EIDL loan 
repayment. They were just notified, though, that they have to 
start paying that loan this April. But as you know, we are 
still in the pandemic.
    So I am sure you agree that this is not correct, and 
countless others, not only in South Florida, but all across the 
country, small businesses cannot start dishing out money to be 
paying for a loan that was given to them by the Federal 
Government. I believe that this additional flexibility provides 
more time for businesses like this store that I visited 
yesterday, to recover before they are due or they need to make 
their first payments.
    I urge my colleagues to support this amendment. And I yield 
back the balance of my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back. Do other 
Members wish to be recognized on the amendment? I will 
recognize myself in opposition to the amendment.
    The amendment is problematic because it will raise costs on 
the program for a period of time exceeding the 10-year period. 
An increase in cost is a violation of the Reconciliation Rule. 
But this is well intended effort to ease burdens on the small 
businesses; this, unfortunately, is not the appropriate vehicle 
for it.
    I will, therefore, encourage my colleagues to vote no on 
this amendment. But I would also like to say to the gentlelady 
from Florida, let us keep working on ideas like this to help 
the small business going forward.
    And with that I ask----
    Mr. LUETKEMEYER. Madam Chair?
    Chairwoman VELAZQUEZ. Yes.
    Mr. LUETKEMEYER. Ranking Member asks to be recognized.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Move to strike the last word. Thank you.
    I want to move in support of the gentlelady's amendment. 
This is something I think if you look at both of our COVID 
package bills, the one that passed in March, the one that 
passed in December, there is the extension of the Troubled Debt 
Restructuring Rule as well as SESA Rule that allows for some 
forbearance. The last bill actually allows forbearance on those 
two things until the end of the year. So we all recognized in 
both packages the fact that because of this pandemic people are 
struggling to be able to meet their obligations and that 
because of this unusual nature, this is not like a situation 
where a hurricane comes in and blasts everything and you are 
going to be out of business and have hard times in backup and 
money because you have no business anymore. This is a situation 
where once the pandemic passes and we have seen this in 
different states where once their lockdown stops, businesses 
get back engaged. The customers become engaged and suddenly, 
the economy takes off and businesses take off. It is a matter 
of getting some forbearance by the regulators to the banks and 
credit unions and in this situation, we are talking about the 
EIDL loans so that they can give forbearance to the customers 
so they have time to work through this.
    Chairwoman VELAZQUEZ. Will the gentleman yield?
    Mr. LUETKEMEYER. This is very important because if you----
    Chairwoman VELAZQUEZ. Will the gentleman yield?
    Mr. LUETKEMEYER. Yes, I would be glad to yield.
    Chairwoman VELAZQUEZ. I look forward to working with you, 
to hold hearings on this program, gather input from our 
constituents and stakeholders, and consider a change like this 
under regular order. But for today's purposes and on the 
reconciliation instructions, which we are operating under, I 
must urge a no vote on this amendment, but I am looking forward 
to working with you. And I thank the gentleman for yielding.
    Mr. LUETKEMEYER. Yeah, reclaim my time. I look forward with 
you, Madam Chair, because this is an issue that you and I have 
talked about this a lot on our other Committee as well as now 
we are talking about it on this Committee. This forbearance is 
a really, really big deal and I think if we can't accept this 
amendment today, I think that Ms. Salazar certainly has a good 
suspension bill here that we could put together for this 
Committee to be able to accept because I think it is something 
that is desperately needed. As she indicated, you know, the 
first year runs out already in April here, so, we have got some 
folks that are still struggling that are really going to be 
hurt by the--and tied up by the rules that we have. So, with 
that I certainly ask for a vote of yes on this and a vote of 
support. I understand your position, but with that, I yield 
back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Ms. SALAZAR. Will the gentleman yield for a few more words?
    Chairwoman VELAZQUEZ. Time expired. Time has expired unless 
we could get someone, another Member to ask for--strike the 
last word and yield to you.
    Mr. MEUSER. Madam Chair, I ask to strike the last word and 
yield to the Congresswoman.
    Chairwoman VELAZQUEZ. May I ask who is asking for time?
    Mr. MEUSER. I am sorry. This is Representative Dan Meuser.
    Chairwoman VELAZQUEZ. Okay. The gentleman is recognized for 
5 minutes and he is yielding time to the gentlelady from 
Florida.
    Ms. SALAZAR. Madam Chairman Velazquez, thank you very much. 
I just have one question. So, what are we going to say to those 
people that owe that loan payment April 1st? That when I was 
representing them in Small Business Committee, they were 
telling me that, well, you, Madam Chairman, you said to us that 
we needed to consider this at another time and because of 
reconciliation, most people do not understand what that means. 
They do know that they have to pay the loan April 1st.
    So I would like you to please tell me what other words that 
I need to use so I can go back tomorrow and tell them that it 
is that we are going to do this at another time. Because 
another time, they still owe it.
    Chairwoman VELAZQUEZ. Well, the issue here is that there 
are instructions and this amendment will violate the Byrd rule 
and, therefore, we cannot do it at this time. But there are 
EIDL grants that are in this package. There is nothing that 
will prevent and that provides flexibility as to the use of 
that money. So, there are other options that individuals in 
that position could look at that could be helpful to them while 
we will follow regular order and consider a standalone deal.
    Is there any further debate on the amendment? Seeing none--
--
    Ms. DAVIDS. Madam Chair?
    Chairwoman VELAZQUEZ. Oh, who is seeking recognition?
    Ms. DAVIDS. Davids from Kansas.
    Chairwoman VELAZQUEZ. Ms. Davids is recognized for 5 
minutes.
    Ms. DAVIDS. Thank you, Chairwoman. I will keep it brief. I 
just wanted to express my desire and willingness to work with 
the both of you on moving this forward in regular order, post 
reconciliation process. I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back. Is there any further debate on the amendment? Seeing 
none, the question is on the amendment by the gentlelady from 
Florida.
    I ask all Members, please unmute yourself for the roll 
call.
    All those in favor, say aye?
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Salazar second amendment. For what 
purpose does the gentlelady from Florida seek recognition?
    Ms. SALAZAR. I have an amendment at the desk, Amendment 
Number 18.
    Chairwoman VELAZQUEZ. Without objection, the Clerk will 
report the amendment.
    The CLERK. Amendment 2v1----
    Chairwoman VELAZQUEZ. Without objection further reading of 
the amendment will be dispensed with. The gentlewoman is 
recognized for 5 minutes.
    Ms. SALAZAR. Thank you, Madam Chairman Velazquez. The 
amendment is simple. It adds only two words to the section 
about the community navigator pilot program. It specifically 
adds the words ``entrepreneurial counsel'' to the description 
of what the community navigator pilot program should do. This 
crucial program will provide technical and educational support 
to business owners who currently lack access to adequate COVID 
relief resources.
    By adding the term ``entrepreneurial counsel'' to the list 
of services provided by the program, we would ensure that 
businesses have access to more than just basic support. 
Entrepreneurial counsel could include any kind of counseling, 
assistance, or business support that helps small businesses 
make decisions impacting economic growth. By adding these two 
simple words, we are able to provide the practical skills that 
small businesses in our country need to grow and to thrive, not 
only to maintain.
    By adding these two simple words, this particular 
critical--it is particularly critical for our low-income and 
underserved minority communities where you and I belong to and 
come from, who have suffered the most, as you know and you have 
said it during this hearing, from the pandemic. We know that 
our constituents will benefit tremendously from services like 
entrepreneurial counseling, which is going to be a critical 
part of the Prosperity Center I am opening in District Number 
27, an integral part of my congressional office services down 
here in Miami. This is the type of assistance that I would love 
for my constituents to have available to them, entrepreneurial 
counsel.
    I thank you for this time and I yield back my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back. Do other 
Members wish to be recognized on this amendment?
    Mr. CROW. Madam Chair, Jason Crow. I would like to claim 
time in opposition.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. CROW. Thank you, Madam Chair. I would like to speak 
briefly in opposition to the amendment. And while I appreciate 
my colleague, Ms. Salazar's spirit of this and I think there is 
definitely something that we can do to work on this through 
this Committee in the months and years ahead. You know, as the 
Chairman of the Subcommittee on Innovation Entrepreneurship and 
Workforce Development, what I know here is that this language 
that would be amended comes out of Section 6004 which actually 
already covers the services that would be covered under the 
language that you are adding. So, it could be duplicative 
because the 6004 language, existing language, actually 
describes in detail the community navigator services that are 
included, which include outreach, education, and technical 
assistance. So, we already covered the issues that would be 
covered under the addition of your two words.
    That said, you know, the problem here is, again, one of 
implementation and what the intent of this package is. This 
package is trying to deliver relief rapidly and effectively to 
small businesses. And if were to add these two words, which, 
again, are already covered by existing language in the services 
provided under the community navigator program, it would 
actually make implementation harder, slow that process down, 
and adversely impact the very same businesses and harm then 
that we are trying to save.
    So, you know, my promise to you is to continue this 
conversation. I would like to talk more about what we can do to 
address your concerns and whether we need to expand that 
language in the months and years ahead. We will have some 
hearings where we will be able to have that discussion and call 
some witnesses. But with respect to this package, it would 
actually create some harm by slowing the process down in a way 
that we already have been covered.
    So, with that, I will again urge my colleagues to oppose 
the amendment and I appreciate the time and, Madam Chair, I 
yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
Do other Members wish to be recognized on the amendment? Is 
there any further debate on the amendment? Hearing none, the 
question is on the amendment by the gentlelady from Florida.
    I ask all Members to please unmute yourself for the roll 
call.
    All those in favor, say aye?
    All opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider Stauber second amendment. First?
    Mr. STAUBER. Stauber number 2.
    Chairwoman VELAZQUEZ. Number 2. For what purpose does the 
gentleman from Minnesota seek recognition?
    Mr. STAUBER. Chairwoman Velazquez, I have an amendment at 
the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 2v1 to the Amendment to the Committee 
print offered by Mr. Stauber of Minnesota.
    Mr. STAUBER. Your Honor----
    Chairwoman VELAZQUEZ. Objection for the reading of the 
amendment will be dispensed with. The gentleman is recognized 
for 5 minutes.
    Mr. STAUBER. Well, thank you, Chairwoman Velazquez and 
Ranking Member Luetkemeyer. You know, I raise to all of you 
something that has really troubled me for a long time. You 
know, back in August of 2020, then Presidential candidate Joe 
Biden stated in an interview with ABC that he would in quote, 
``shut it down,'' meaning shut the economy down if he believed 
the COVID situation called for it.
    As Minnesota small businesses struggle with a governor who 
seems hell bent on retaining control over their livelihoods by 
keeping his emergency powers, I am worried now that my 
constituents will have to deal with a President who is going to 
unilaterally add more Federal restrictions and mandates, 
ultimately, closing up mom-and-pop shops for good. We simply 
cannot afford the shutdowns that President Biden is threatening 
us with. A top-down approach has never been wise and I hardly 
think it is fair to subject New York City with a population of 
8.4 million to the same COVID-19 restrictions as in Ely, 
Minnesota, with a population of 3,500.
    My amendment requires the SBA to issue a report on the 
impact on small businesses if there is a COVID-19 related 
Federal mandate in place that would otherwise restrict or 
prevent any small business from operating at normal capacity. 
And I urge my support of this amendment so we can understand 
just how devastating a Biden Federal shutdown would be on our 
small businesses across this nation. Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Do other 
Members wish to be recognized on the amendment?
    Ms. HOULAHAN. Madam Chair, I seek recognition to claim time 
in opposition to the amendment.
    Chairwoman VELAZQUEZ. Ms. Houlahan?
    Ms. HOULAHAN. Yes, ma'am.
    Chairwoman VELAZQUEZ. Yes. I am sorry. I just can't see 
from here.
    Ms. HOULAHAN. No problem.
    Chairwoman VELAZQUEZ. So, the gentlelady is recognized. For 
what? You have an amendment at the desk?
    Ms. HOULAHAN. I seek actually recognition to claim time in 
opposition to the amendment.
    Chairwoman VELAZQUEZ. Yes, the gentlelady is recognized for 
5 minutes.
    Ms. HOULAHAN. I really appreciate very much Mr. Stauber and 
I very much thank him for his amendment. I value him personally 
and his commitment to bipartisan work. Unfortunately and 
respectfully, this amendment that he has offered would violate 
the Byrd rule in the Senate. The reconciliation package that we 
are addressing right now is not the proper vehicle for this 
kind of amendment right now.
    As a result, I am opposed to this amendment and I urge my 
colleagues to oppose it as well.
    With that being said, the issue isn't that businesses are 
being impacted by public safety members--measures. It is, in 
fact, that too many American consumers at this point don't feel 
safe to return to a sense of normalcy.
    According to one survey, 64 percent of people are not 
currently engaged in normal out-of-home activities at this 
point in time.
    So, in sum, we cannot lose sight of our main and immediate 
focus right now and this evening, which is providing economic 
relief to the underserved and the hardest hit communities, and 
providing it quickly. To accomplish that, we are limited by 
strict budgetary restraints in this process and at this point 
by the Byrd rule.
    And while I oppose this amendment, I assure you, Mr. 
Stauber, that I would love to work with you to send a letter to 
the SBA to ensure that your concerns are being addressed. So, I 
would encourage my colleagues to reject this amendment, and 
with that, I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentlelady yields back. Is there 
any further debate on the amendment?
    Mr. LUETKEMEYER. Madam, this is Ranking Member. I asked to 
be recognized.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you. Strike the last word. I 
appreciate the gentleman's amendment here. I think this is 
extremely important that we understand the effect of the 
lockdowns, the effect of trying to mandate certain things to 
happen. I know that there has been this discussion of the Byrd 
rule several times this evening and today. And it is 
unfortunate because I think we are hiding behind it to a 
certain extent.
    I think we need to allow some of these things to go on and 
let the Senate make the decision. If they want to throw it out, 
that is fine, but this is good policy. This is good 
legislation. This is a good way to look at revenues, to see 
once how these actions of bureaucrats affect the revenues and 
the economy that we are talking about here. I think it all 
works together. I do not think--you know, I think we could make 
a good case that it goes around the Byrd rule, but I think 
hiding behind it as we have is very disappointing. You know, 
when you talk about lockdowns, we already have a lot of case 
studies here that shows when you take the shackles off, the 
economy can blossom.
    I can use my own state, State of Missouri, where the 
lockdown was taken off in mid-May. We wound up with a 5 percent 
increase in revenues for the year in Missouri in 2020 over 
2019. We now have a 4.4 percent unemployment rate and we have 
200,000 jobs that are looking for somebody to fill them. So, we 
can walk and chew gum at the same time and those individuals 
who are political leaders in their different states, as well as 
other cities and counties, all they have to do is look across 
the country or across the state next door to them and see how 
this can be done.
    And I think, what the gentleman's amendment is trying to do 
is point this out, that this can be done and there is certainly 
an effect to the lockdowns when you have one state that is 
locked down and their economy is still in the tank and the 
state next to them is open and they are going great guns. I 
think those are things that we need to be looking at. And, 
quite frankly, if again, Madam Chair and the gentle Ms. 
Houlahan here also indicate that they kind of like this 
amendment, maybe Mr. Stauber could offer this as a suspension 
bill very shortly here because it is just simply asking the SBA 
to actually do what they are supposed to be doing. So, I 
support the amendment and ask for its adoption, and with that, 
Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back and I 
recognize myself in opposition to the amendment.
    In August 21, 2020, it was then candidate Joe Biden. Today, 
President Joe Biden is saying that he wants to see the schools 
in our country to reopen. But we cannot look at this issue in 
terms of the shutdown isolated. We all know that unless we 
crush the virus, people will not feel safe to go walk into a 
restaurant and walk into a mall.
    The Federal Research Chairman Powell recently testified, 
and I quote, ``A full economic recovery is unlikely until 
people are confident that it is safe to reengage in a broad 
range of activities and that the key to recovery is to keep the 
virus in check.''
    So, this amendment violates the Byrd rule and for that 
reason, we are asking a no vote.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Minnesota. I ask all Members to please unmute 
yourself for the roll call.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    We will now consider the Stauber amendment. For what 
purpose does the gentleman from Minnesota seek recognition?
    Mr. STAUBER. Chairwoman Velazquez, I have an amendment at 
the desk.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment 1v1 to the amendment to the Committee 
print offered by Mr. Stauber.
    Chairwoman VELAZQUEZ. Mr. Stauber is recognized for 5 
minutes.
    Mr. STAUBER. Thank you, Chairwoman Velazquez and Ranking 
Member Luetkemeyer. You know, as President Biden gave his 
inaugural address about unity, on his first day in office he 
made a heartless decision to take away more jobs in the middle 
of an economic crisis by revoking the Keystone XL pipeline 
permits just hours later. Now, when President revoked those 
permits, he not only destroyed the livelihoods of those who 
worked on the pipeline, but the small business community who 
supported them as well. Motels that hosted the workers, 
restaurants that fed the workers, retail stores that supplied 
the workers all crushed in the blink of an eye by the 
President's Executive Order decision.
    My amendment simply will require the Small Business 
Administration to report on the effects of revoking these 
permits on small businesses. My amendment will make sure under 
no uncertain terms the President understands the damage and 
devastation he has caused with his decision.
    And I urge support for my amendment and I ask to keep in 
mind the thousands of small business owners and their families 
who are now facing very grave and uncertain financial futures 
due to this Executive Order. Thank you, Madam Chair, and I 
yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Do other 
Members wish to be recognized on the amendment? I will 
recognize myself for--in opposition to the amendment.
    So, let me say that we, as a nation, we have an abiding 
commitment to promote and protect our public health and the 
environment, to empower our workers and communities. We listen 
to the science; work to improve public health; and protect our 
environment to ensure access to clean air and water; to limit 
exposure to dangerous chemicals and pesticides; to hold 
polluters accountable, including those who disproportionately 
harm communities of color and low-income communities; and to 
reduce greenhouse gas emissions and support resiliency to the 
impacts of climate change.
    Following exhaustive reviews by Federal agencies, it is 
clear that the proposed Keystone XL pipeline does not serve the 
U.S. national interests and will not provide significant energy 
security and economic benefits.
    As outlined by President Biden, we must focus on 
prioritizing the development of a clean energy economy which 
will, in turn, create good jobs around the country. The United 
States and the world face a climate crisis. That crisis must be 
met with action to avoid setting the world on a dangerous, 
potentially catastrophic climate trajectory.
    We must combat the crisis with an ambitious plan to build 
back better, focusing on reducing harmful emissions and 
creating good, clean energies. In addition to the ongoing 
climate crisis, we are in the midst of a national pandemic that 
has decimated small businesses in every congressional district 
across the country. Today, we must act decisively and enact 
legislation that provides immediate economic relief to small 
businesses and ensure that the SBA has the capacity to address 
this issue.
    Also, this amendment violates the Byrd rule in the Senate. 
And with the reasons that I also explained, I am asking for the 
no vote.
    Do other Members wish to be recognized on the amendment?
    Mr. LUETKEMEYER. Madam Chair, this is the Ranking Member. I 
ask to be recognized.
    Chairwoman VELAZQUEZ. For what purpose is the gentleman 
seeking recognition?
    Mr. LUETKEMEYER. Strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you, Madam Chair. I would like to 
yield some additional time to the sponsor of the amendment, Mr. 
Stauber from Minnesota.
    Mr. STAUBER. Thank you. Thank you, Ranking Member 
Luetkemeyer. Madam Chairwoman, I do appreciate your comments 
reference my amendment, but let us talk about the jobs, the 
good paying jobs that were removed, thousands and thousands of 
good paying jobs. These jobs were going to be done by our union 
friends under project labor agreements and Davis-Bacon 
prevailing wage. Over $3.8 billion was struck out of our 
economy because of an Executive Order. These were American 
jobs. These were my friends that were going to work on this. We 
have to retain energy independence so we do not rely on OPEC 
nations anymore. We have been involved in wars over energy, 
oil, and gas.
    Today, Madam Chair, or rather tonight, it is almost 30 
below 0 in Northern Minnesota. We are heating our homes with 
natural gas and oil to stay warm and our middle class and lower 
class families today have energy that they can afford. The 
Keystone pipeline was vetted, one of the most vetted projects 
in America. Our neighbors and allies and good friends from the 
North, our Canadian friends are disappointed, extremely 
disappointed at this Executive Order.
    This pipeline meets the EPA standards and the labor 
standards that we set forth and that the world tries to strive 
for. Madam Chair, with all due respect, this line goes through 
small communities from 300 people to 3,000 people. The 
expectation and the preparedness for those workers to be in 
those respective communities, to help the small businesses and 
help their economy grow, they were looking forward to that.
    My amendment simply says what was the devastation? And I 
respectfully yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Minnesota.
    I ask all Members to please unmute yourself for the roll 
call.
    All those in favor, say aye?
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Mr. STAUBER. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote. Is there a sufficient second?
    Mr. LUETKEMEYER. [Nonverbal response]
    Chairwoman VELAZQUEZ. There is a sufficient second. A roll 
call vote is ordered pursuant to Committee rule 13 and House 
rule XI, further proceedings on the amendment are postponed.
    We will now consider the Hagedorn first amendment. For what 
purpose does the gentleman from Minnesota seek recognition?
    Mr. HAGEDORN. Madam Chair, I have an amendment at the desk.
    Chairwoman VELAZQUEZ. The clerk will record the amendment.
    The CLERK. Amendment 1v1----
    Chairwoman VELAZQUEZ. Without objection further reading on 
the amendment will be dispensed with. The gentleman is 
recognized for 5 minutes.
    Mr. HAGEDORN. I appreciate that, Madam Chair. I won't take 
the 5 minutes.
    My amendment does something very simple. It allows farmers 
and ranchers categorized as partnerships, such as LLCs, to 
consider gross income when applying for Paycheck Protection 
Program loans. You know, currently, SBA only allows 
agricultural partnerships to consider their net income and by 
opening up to gross income, more farmers and producers can 
receive maximum PPP loans. I have heard from all sorts of 
producers in Minnesota, corn growers, pork producers, soybean 
growers, Farm Bureau Members, sugar beet growers, it does not 
matter and across the country. The farmers are really in need 
of this. They have been through a lot in COVID. We should open 
this up to get them whatever kind of things that we can in 
order to help sustain their operations.
    And with that, I would ask for consideration and support 
for the amendment. Thank you very much.
    Chairwoman VELAZQUEZ. The gentleman yields back. Do other 
Members wish to be recognized on the amendment?
    Mr. LUETKEMEYER. Madam Chair, this is the Ranking Member. I 
asked to be recognized.
    Chairwoman VELAZQUEZ. For what purpose does the gentleman 
from Missouri seek recognition?
    Mr. LUETKEMEYER. Strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. LUETKEMEYER. Thank you. I will be very brief. This is 
the last amendment we have got. We are all ready to lock the 
doors on all this, but I think this is an amendment that is 
truly something that I think you need. It is bipartisan. 
Everybody can get behind this.
    Every single farmer, if you go talk to him, this is an 
issue, to fix the PPP problem that they have with access to the 
loans because of the way that they are structured with their 
farming operation. And that is what this gentleman does. It is 
a very simple request in what he is trying to do here, to be 
able to fix it and it is an unforced error here. It is 
something that nobody realized at the time they did it. It is 
something that in the past we have been able to get the 
Treasury just to actually fix the glitch here on their own, but 
they haven't seen to do it yet. So, I think by us trying to do 
it here, it certainly sets the stage for this to get done. I 
think the gentleman has got a great amendment and I certainly 
urge its adoption. With that, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Mr. STAUBER. Madam Chair?
    Chairwoman VELAZQUEZ. Who seeks recognition?
    Mr. STAUBER. Madam Chair, Stauber, Minnesota 8.
    Chairwoman VELAZQUEZ. The gentleman is seeking recognition 
to speak on the amendment, to strike the last word?
    Mr. STAUBER. Yes, I would like to strike the last word, 
Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. STAUBER. Madam Chair, I would just like to say a few 
words. I would like to thank my friend and colleague, 
Congressman Hagedorn, for offering this important amendment. 
This amendment will allow for more of our farmers and ranchers 
to access the maximum PPP loan amount. The challenges that the 
farmers and ranchers face have only been exacerbated by this 
COVID-19 crisis. So, I am happy to support my colleague in his 
call for more relief for the men and women who work hard to put 
food on our tables. And Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment?
    Mr. MFUME. Madam Chair, I move to strike the last word.
    Chairwoman VELAZQUEZ. The gentleman is recognized for 5 
minutes.
    Mr. MFUME. Thank you, Madam Chair, and I will not use all 
the time. I think that this is a well-intentioned amendment. I 
have a real serious concern, however, as to whether it will 
ever make it to the final bill because I think it violates the 
germaneness rule. And because it has in it tax policy which 
brings about tax implications, it would probably be better 
taken up by the Ways and Means Committee. I think that we are 
moving into an area over which this Committee may not have real 
jurisdiction.
    So, it is not to question the intention of the author or 
the intention of the amendment. It is just the question of 
whether or not it will be deemed as germane and whether or not 
there are tax implications that this Committee cannot address 
because it doesn't have oversight. So, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Is there 
any further debate on the amendment? I will recognize myself in 
opposition to the amendment.
    I share the concerns of my colleague, Mr. Hagedorn, 
regarding America's farmers and ranchers, and agree that they 
have been particularly hard hit by the pandemic and resulting 
shifts in markets. As you know, Congress has provided 
additional relief for agricultural businesses, including direct 
relief from USDA, and also ensured that agricultural businesses 
can take advantage. And by the way, I work very hard with 
Congressman Antonio Delgado and the former Ranking Member to 
allow for farmers to be able to access both the PPP loans and 
EIDL.
    We must remember that businesses can choose how they 
organize and register the business. Each type of business 
structure has certain benefits and disadvantages. With that 
said, we are limited by the Byrd rule. I will have to oppose 
the amendment at this time.
    Is there any further debate on the amendment?
    Seeing none, the question is on the amendment by the 
gentleman from Minnesota.
    I ask to please unmute yourself for the roll call.
    All those in favor, say aye.
    All those oppose, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Mr. HAGEDORN. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote. Is there a sufficient second?
    Mr. LUETKEMEYER. [Nonverbal response]
    Chairwoman VELAZQUEZ. There is a sufficient second. A roll 
call vote is ordered pursuant to Committee rule 13 and House 
ule XI. Further proceedings on the amendment are postponed.
    Does any Member seek recognition to offer additional 
amendments? Being none, the Committee stands in recess subject 
to the call of the Chair.
    [Recess]
    Chairwoman VELAZQUEZ. The Committee will come to order.
    The Committee will now resume consideration of the 
amendments on which roll call votes were requested and 
postponed. In agreement with the Ranking Member and without 
objection, the Committee will now consider end block number 1 
which includes the following seven amendments on which roll 
call votes were requested and postponed.
    Williams number 1 offered by the gentleman from Texas. 
Garbarino number 1 offered by the gentleman from New York. 
Garbarino number 2 offered by the gentleman from New York. Kim 
number 1 offered by the gentlewoman from California. Donalds 
number 1 offered by the gentleman from Florida. Hagedorn number 
1 offered by the gentleman from Minnesota. Stauber number 1 
offered by the gentleman from Minnesota. On end block number 1, 
the clerk will call the roll.
    The CLERK. Mr. Golden?
    Mr. GOLDEN. No.
    The CLERK. Mr. Golden votes no. Mr. Crow?
    Mr. CROW. No.
    The CLERK. Mr. Crow votes no. Ms. Davids? Ms. Davids?
    Ms. DAVIDS. Davids votes no.
    The CLERK. Ms. Davids votes no. Mr. Mfume?
    Mr. MFUME. No.
    The CLERK. Mr. Mfume votes no. Mr. Phillips?
    Mr. PHILLIPS. No.
    The CLERK. Mr. Phillips votes no. Ms. Newman?
    Ms. NEWMAN. Newman votes no.
    The CLERK. Ms. Newman votes no. Ms. Bourdeaux?
    Ms. BOURDEAUX. Bourdeaux votes no.
    The CLERK. Ms. Bourdeaux votes no. Ms. Chu?
    Ms. CHU. Chu votes no.
    The CLERK. Ms. Chu votes no. Mr. Evans?
    Mr. EVANS. Mr. Evans votes no.
    The CLERK. Mr. Evans votes no. Mr. Delgado?
    Mr. DELGADO. Delgado votes no.
    The CLERK. Mr. Delgado votes no. Ms. Houlahan?
    Ms. HOULAHAN. Houlahan votes no.
    The CLERK. Ms. Houlahan votes no. Mr. Kim?
    Mr. KIM. No.
    The CLERK. Mr. Kim votes no. Ms. Craig?
    Ms. CRAIG. Craig votes no.
    The CLERK. Ms. Craig votes no. Mr. Luetkemeyer?
    Mr. LUETKEMEYER. Luetkemeyer votes yes.
    The CLERK. Mr. Luetkemeyer votes aye. Mr. Williams?
    Mr. WILLIAMS. Aye.
    The CLERK. Mr. Williams votes aye. Mr. Hagedorn?
    Mr. HAGEDORN. Hagedorn votes aye.
    The CLERK. Mr. Hagedorn votes aye. Mr. Stauber?
    Mr. STAUBER. Stauber votes yes.
    The CLERK. Mr. Stauber votes aye. Mr. Meuser?
    [No response.]
    The CLERK. Mr. Garbarino?
    Mr. GARBARINO. Aye.
    The CLERK. Mr. Garbarino votes aye. Ms. Kim?
    Ms. YOUNG KIM. Is that me, Young Kim?
    The CLERK. Yes, Ms. Young Kim.
    Ms. YOUNG KIM. Kim votes aye.
    The CLERK. Ms. Kim votes aye. Ms. Van Duyne? Ms. Van Duyne?
    [No response.]
    The CLERK. Mr. Donalds?
    Mr. DONALDS. Aye.
    The CLERK. Mr. Donalds says aye. Ms. Salazar?
    Ms. SALAZAR. Salazar votes yes.
    The CLERK. Ms. Salazar votes aye. Mr. Fitzgerald?
    Mr. FITZGERALD. Aye.
    The CLERK. Mr. Fitzgerald votes aye. Ms. Velazquez?
    Chairwoman VELAZQUEZ. Ms. Velazquez votes aye--or mo.
    The CLERK. Ms. Velazquez votes no. Mr. Meuser?
    [No response.]
    Chairwoman VELAZQUEZ. Is he on? The clerk will report the 
tally.
    Mr. STAUBER. Madam Chair?
    Chairwoman VELAZQUEZ. Who seeks recognition?
    Mr. STAUBER. Madam Chair, Stauber from Minnesota. How am I 
recorded?
    Chairwoman VELAZQUEZ. The clerk?
    The CLERK. Mr. Stauber voted aye.
    Mr. STAUBER. Thank you.
    The CLERK. You are welcome. Madam Chairwoman, on this vote, 
there were 9 ayes and 14 noes.
    Chairwoman VELAZQUEZ. The end block amendment is not agreed 
to.
    The question now is on Luetkemeyer number 1, a substitute 
to the amendment in the nature of a substitute offered by the 
gentleman from Missouri. The clerk will call the roll.
    The CLERK. Mr. Golden?
    Mr. GOLDEN. No.
    The CLERK. Mr. Golden votes no. Mr. Crow?
    Mr. CROW. No.
    The CLERK. Mr. Crow votes no. Ms. Davids?
    Ms. DAVIDS. Davids votes no.
    The CLERK. Ms. Davids votes no. Mr. Mfume?
    Mr. MFUME. Mfume votes no.
    The CLERK. Mr. Mfume votes no. Mr. Phillips?
    Mr. PHILLIPS. No.
    The CLERK. Mr. Phillips votes no. Ms. Newman?
    Ms. NEWMAN. Newman votes no.
    The CLERK. Ms. Newman votes no. Ms. Bourdeaux?
    Ms. BOURDEAUX. Bourdeaux votes no.
    The CLERK. Ms. Bourdeaux votes no. Ms. Chu?
    Ms. CHU. Chu votes no.
    The CLERK. Ms. Chu votes no. Mr. Evans?
    Mr. EVANS. Evans votes no.
    The CLERK. Mr. Evans votes no. Mr. Delgado?
    Mr. DELGADO. Delgado votes no.
    The CLERK. Mr. Delgado votes no. Ms. Houlahan?
    Ms. HOULAHAN. Houlahan votes no.
    The CLERK. Ms. Houlahan votes no. Mr. Kim?
    Mr. KIM. No.
    The CLERK. Mr. Kim votes no. Ms. Craig?
    Ms. CRAIG. Craig votes no.
    The CLERK. Ms. Craig votes no. Mr. Luetkemeyer?
    Mr. LUETKEMEYER. Luetkemeyer aye.
    The CLERK. Mr. Luetkemeyer votes aye. Mr. Williams?
    Mr. WILLIAMS. Aye.
    The CLERK. Mr. Williams says aye. Mr. Hagedorn?
    Mr. HAGEDORN. Hagedorn votes aye.
    The CLERK. Mr. Hagedorn votes aye. Mr. Stauber?
    Mr. STAUBER. Mr. Stauber votes yes.
    The CLERK. Mr. Stauber votes aye. Mr. Meuser?
    Mr. MEUSER. Aye.
    The CLERK. Mr. Meuser votes aye. Mr. Garbarino?
    Mr. GARBARINO. Aye.
    The CLERK. Mr. Garbarino votes aye. Ms. Kim?
    Ms. YOUNG KIM. Kim votes aye.
    The CLERK. Ms. Kim votes aye. Ms. Van Duyne?
    [No response.]
    The CLERK. How does Ms. Van Duyne vote?
    Ms. YOUNG KIM. Kim voted aye.
    The CLERK. Thank you. Mr. Donalds?
    Mr. DONALDS. Aye.
    The CLERK. Mr. Donalds votes aye. Ms. Salazar?
    Ms. SALAZAR. Salazar votes yes.
    The CLERK. Ms. Salazar votes aye. Mr. Fitzgerald?
    Mr. FITZGERALD. Fitzgerald votes aye.
    The CLERK. Mr. Fitzgerald says aye. Ms. Velazquez?
    Chairwoman VELAZQUEZ. Velazquez votes no.
    The CLERK. Ms. Velazquez votes no. Ms. Van Duyne?
    [No response.]
    Chairwoman VELAZQUEZ. The clerk will report the tally.
    The CLERK. Madam Chairwoman, on this vote there were 10 
ayes and 14 noes.
    Chairwoman VELAZQUEZ. The amendment is not agreed to.
    The question now occurs on the amendment in the nature of a 
substitute.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendments in the nature of a substitute is agreed to.
    Mr. HAGEDORN. Madam Chair, can I have a recorded vote on 
that, please? I call for a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote. Is there a sufficient second?
    Mr. LUETKEMEYER. [Nonverbal response]
    Chairwoman VELAZQUEZ. There is a sufficient second. A roll 
call vote is ordered.
    The CLERK. Mr. Golden?
    Mr. GOLDEN. No.
    The CLERK. Mr. Golden votes no. Mr. Crow?
    Mr. CROW. No.
    The CLERK. Mr. Crow votes no. Ms. Davids?
    Ms. DAVIDS. Davids votes aye.
    The CLERK. Ms. Davids votes aye. Mr. Mfume?
    Mr. MFUME. Mfume votes aye.
    The CLERK. Mr. Mfume votes aye. Mr. Phillips?
    Mr. PHILLIPS. Aye.
    The CLERK. Mr. Phillips votes aye. Ms. Newman?
    Ms. NEWMAN. Aye.
    The CLERK. Ms. Newman votes aye. Ms. Bourdeaux?
    Ms. BOURDEAUX. Bourdeaux votes aye.
    The CLERK. Ms. Bourdeaux votes aye. Ms. Chu?
    Ms. CHU. Chu votes aye.
    The CLERK. Ms. Chu votes aye. Mr. Evans?
    Mr. EVANS. Evans votes aye.
    The CLERK. Mr. Evans votes aye. Mr. Delgado?
    Mr. DELGADO. Delgado votes aye.
    The CLERK. Mr. Delgado votes aye. Ms. Houlahan?
    Ms. HOULAHAN. Houlahan votes aye.
    The CLERK. Ms. Houlahan votes aye. Mr. Kim?
    Mr. KIM. Aye.
    The CLERK. Mr. Kim votes aye. Ms. Craig?
    Ms. CRAIG. Craig votes aye.
    The CLERK. Ms. Craig votes aye. Mr. Luetkemeyer?
    Mr. LUETKEMEYER. Luetkemeyer votes no.
    The CLERK. Mr. Luetkemeyer votes no. Mr. Williams?
    Mr. WILLIAMS. No.
    The CLERK. Mr. Williams says no. Mr. Hagedorn?
    Mr. HAGEDORN. Hagedorn votes no.
    The CLERK. Mr. Hagedorn votes no. Mr. Stauber?
    Mr. STAUBER. Stauber votes no.
    The CLERK. Mr. Stauber votes no. Mr. Meuser?
    Mr. MEUSER. No.
    The CLERK. Mr. Meuser votes no. Mr. Garbarino? Mr. 
Garbarino?
    Mr. GARBARINO. No.
    The CLERK. Mr. Garbarino votes no. Ms. Kim?
    Ms. YOUNG KIM. Kim votes no.
    The CLERK. Ms. Kim votes no. Ms. Van Duyne?
    [No response.]
    The CLERK. Mr. Donalds?
    Mr. DONALDS. No.
    The CLERK. Mr. Donalds votes no. Ms. Salazar? Ms. Salazar?
    Ms. SALAZAR. Yes. Salazar votes yes.
    The CLERK. Ms. Salazar votes aye. Mr. Fitzgerald?
    Mr. FITZGERALD. Aye.
    The CLERK. Mr. Fitzgerald votes aye. Ms. Velazquez?
    Chairwoman VELAZQUEZ. Aye. Ms. Velazquez votes aye.
    The CLERK. Ms. Velazquez votes aye. Ms. Van Duyne?
    [No response.]
    Chairwoman VELAZQUEZ. Does anyone wish to change their 
vote?
    Mr. MFUME. Madam Chair, to the clerk, how am I recorded?
    The CLERK. Mr. Mfume voted aye.
    Mr. MFUME. Thank you.
    The CLERK. You are welcome.
    Mr. CROW. Madam Chair, to the clerk, how am I recorded?
    The CLERK. Mr. Crow voted no.
    Mr. CROW. I would like to change my vote to aye.
    The CLERK. Mr. Crow votes aye.
    Mr. GOLDEN. Madam Chair, how am I recorded?
    The CLERK. Mr. Golden voted no.
    Mr. GOLDEN. Change that vote to aye.
    The CLERK. Mr. Golden votes aye.
    Mr. FITZGERALD. Clerk, I need to change my vote to no. Mr. 
Fitzgerald.
    The CLERK. Mr. Fitzgerald votes no.
    Chairwoman VELAZQUEZ. The clerk will report the tally.
    Mr. HAGEDORN. Madam Chair, can we report the entire--can I 
make a motion that we go ahead and report the entire roll as 
far as their vote? Because I believe one or two Members were 
confused on this one. Shall I make a motion that the clerk go 
through the roll one more time and just explain where the vote 
is at this time for each Member?
    Chairwoman VELAZQUEZ. The clerk will call the vote or 
announce the vote of each individual Member.
    The CLERK. Ms. Velazquez voted aye. Mr. Golden voted aye. 
Mr. Crow voted aye. Ms. Davids voted aye. Mr. Mfume voted aye. 
Mr. Phillips voted aye. Ms. Newman voted aye. Ms. Bourdeaux 
voted aye. Ms. Chu voted aye. Mr. Evans voted aye. Mr. Delgado 
voted aye. Ms. Houlahan voted aye. Mr. Kim voted aye. Ms. Craig 
voted aye. Mr. Luetkemeyer voted no. Mr. Williams voted no. Mr. 
Hagedorn voted no. Mr. Stauber voted no. Mr. Meuser voted no. 
Mr. Garbarino voted no. Ms. Kim voted no. Mr. Van Duyne did not 
vote. Mr. Donalds voted no. Ms. Salazar voted aye. Mr. 
Fitzgerald voted no.
    Chairwoman VELAZQUEZ. Again, does anyone wish to change 
their vote, his or her vote?
    The clerk will report the tally.
    The CLERK. Madam Chairwoman, on this vote there were 15 
ayes and 9 noes.
    Chairwoman VELAZQUEZ. The ayes have it and the amendment in 
the nature of a substitute is agreed to.
    The question now occurs on the Committee print as amended.
    All those in favor, say aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it and the 
Committee print as amended is agreed to.
    The Chair now recognizes the gentleman from Maryland to 
make a motion.
    Mr. MFUME. Madam Chair, I move that the Committee transmit 
the Committee print as amended to the House Committee on the 
budget with the recommendation that the Committee do passed.
    Chairwoman VELAZQUEZ. The question is on the motion offered 
by the gentleman from Maryland.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
motion is agreed to.
    Mr. HAGEDORN. Madam Chair, I request a recorded vote.
    Chairwoman VELAZQUEZ. The gentleman has requested a 
recorded vote. Is there a sufficient second?
    Mr. LUETKEMEYER. [Nonverbal response]
    Chairwoman VELAZQUEZ. There is a sufficient second. A roll 
call vote is ordered. The clerk will call the roll.
    The CLERK. Mr. Golden?
    Mr. GOLDEN. Aye.
    The CLERK. Mr. Golden votes aye. Mr. Crow?
    Mr. CROW. Aye.
    The CLERK. Mr. Crow votes aye. Ms. Davids?
    Ms. DAVIDS. Davids votes aye.
    The CLERK. Ms. Davids votes aye. Mr. Mfume?
    Mr. MFUME. Mfume votes aye.
    The CLERK. Mr. Mfume votes aye. Mr. Phillips?
    Mr. PHILLIPS. Aye.
    The CLERK. Mr. Phillips votes aye. Ms. Newman?
    Ms. NEWMAN. Aye.
    The CLERK. Ms. Newman votes aye. Ms. Bourdeaux?
    Ms. BOURDEAUX. Bourdeaux votes aye.
    The CLERK. Ms. Bourdeaux votes aye. Ms. Chu? Ms. Chu?
    [No response.]
    The CLERK. Mr. Evans?
    Mr. EVANS. Aye.
    The CLERK. Mr. Evans votes aye. Mr. Delgado?
    Mr. DELGADO. Aye.
    The CLERK. Mr. Delgado votes aye. Ms. Houlahan?
    Ms. HOULAHAN. Aye.
    The CLERK. Ms. Houlahan votes aye. Mr. Kim?
    Mr. KIM. Aye.
    The CLERK. Mr. Kim votes aye. Ms. Craig?
    Ms. CRAIG. Craig votes aye.
    The CLERK. Ms. Craig votes no. Mr. Luetkemeyer?
    Mr. LUETKEMEYER. Luetkemeyer votes no.
    The CLERK. Mr. Luetkemeyer votes no. Mr. Williams?
    Mr. WILLIAMS. No.
    The CLERK. Mr. Williams says no. Mr. Hagedorn?
    Mr. HAGEDORN. Hagedorn votes no.
    The CLERK. Mr. Hagedorn votes no. Mr. Stauber?
    Mr. STAUBER. Stauber votes no.
    The CLERK. Mr. Stauber votes no. Mr. Meuser?
    Mr. MEUSER. No.
    The CLERK. Mr. Meuser votes no. Mr. Garbarino? Mr. 
Garbarino?
    [No response.]
    The CLERK. Ms. Kim?
    Ms. YOUNG KIM. Kim votes no. I swear you would not believe 
the----
    The CLERK. Ms. Kim votes no. Ms. Van Duyne?
    [No response.]
    The CLERK. Mr. Donalds?
    Mr. DONALDS. No.
    The CLERK. Mr. Donalds votes no. Ms. Salazar?
    Ms. SALAZAR. Yes, votes yes.
    The CLERK. Ms. Salazar votes aye. Mr. Fitzgerald?
    Mr. FITZGERALD. Fitzgerald votes no.
    The CLERK. Mr. Fitzgerald says no. Ms. Velazquez?
    Chairwoman VELAZQUEZ. Ms. Velazquez votes aye.
    The CLERK. Ms. Velazquez votes aye. Ms. Chu?
    Ms. CHU. Chu votes aye.
    The CLERK. Ms. Chu votes aye. Mr. Garbarino?
    Mr. GARBARINO. No.
    The CLERK. Mr. Garbarino votes no.
    Chairwoman VELAZQUEZ. Does anyone want to change their 
vote? The clerk will report the tally.
    The CLERK. Madam Chairwoman, on this vote there were 15 
ayes and 9 noes.
    Chairwoman VELAZQUEZ. The ayes have it and the motion is 
agreed to.
    Pursuant to House Rule XI, clause 2L, I ask that Committee 
Members have the right to file with the clerk of the Committee 
supplemental additional minority and dissenting views without 
objection. Also, without objection, the staff is authorized to 
make necessary technical and conforming changes. The meeting is 
adjourned.
    [Whereupon, at 10:26 p.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
